                         OFFICE OF INSPECTOR GENERAL
                CORPORATION FOR NATIONAL AND COMMUNITY SERVICE




                           Incurred-Cost Audit of Grants Awarded to the
                                 Ohio Community Service Council




                                       Audit Report No. 03-05
                                         January 17,2003



                                       Financial Schedules and
                                    Independent Auditors' Report
                                            For the Period
                                  October 1, 1998, to March 3 1,2002



                                             Prepared by:


                                    COTTON & COMPANY LLP
                                  333 North Fairfax Street, Suite 40 1
                                     Alexandria, Virginia 223 14




This report was issued to Corporation management on September 30, 2003. Under the laws and
regulations governing audit follow-up, the Corporation must make final management decisions on the
report's findings and recommendations no later than March 30, 2004, and complete its corrective actions
by September 30, 2004. Consequently, the reported findings do not necessarily represent the final
resolution of the issues presented.
                                                                                           CORPORATION
                                  Office of Inspector General                              FOR NATIONAL
                        Corporation for National and Community Service
                                      Audit Report 03-05

                          Incurred-Cost Audit of Grants Awarded to the
                                Ohio Community Service Council

Intvoduction

The Corporation for National and Community Service, pursuant to the authority of the National
and Community Service Act, as amended, awards grants and cooperative agreements to State
con~missions,nonprofit entities, tribes and territories to assist in the creation of full- and part-
time national and community service programs. Currently, under the Act's requirements, the
Corporation awards approximately three-fourths of its AmeriCorps StateINational funds to State
commissions. The State commissions in turn fund and are responsible for the oversight of
subgrantees who execute the programs. Through these subgrantees, AmeriCorps members
perform service to meet educational, human, environmental, and public safety needs.

The Office of Inspector General (OIG) retained Cotton and Company, LLP to audit Corporation
grants to the Ohio Community Service Council for AmeriCorps, Learn and Serve, Program
Development Assistance and Training, Promise Fellows, Disability, Education, Make a
Diff'erence Day, Ohio Reads Early, Governor's Initiative and Administrative costs from October
1, 1998, through March 31, 2002. The audit's objectives were to determine whether: (1) the
Council's financial reports presented fairly the financial results of the awards; (2) the internal
controls adequately safeguarded Federal funds; (3) the Council and its subgrantees had adequate
procedures and controls to ensure compliance with Federal laws, applicable regulations, and
award conditions; (4) costs were documented and allowable under the awards' terms and
conditions; and (5) the Council had established adequate financial and program management
oversight of its subrecipients.

The Council had total claimed costs of $16,410,629, of which the auditors questioned $3 1,536
for allowability and $l,22O,5 18 for lack of supporting documentation. The total questioned costs
amount to 7.6 percent of the total claimed costs. Costs questioned for allowability represent
amounts for which documentation shows that recorded costs were expended in violation of
regulations or specific award conditions, or costs that require interpretation of allowability.
Costs questioned for support require additional documentation to substantiate that the costs were
incurred and are allowable. The audit report expresses a disclaimer of opinion on the
Consolidated Schedule of Claimed and Questioned Costs because accounting records supporting
claimed costs were not available for audit. As support for expenditures reported to the
Corporation, the Council provided a database of transactions formulated from financial
information provided by the State of Ohio's official accounting system. Because of
undocumented adjustments made to the database and the Council's failure to make
corresponding adjustments to the State's accounting records, claimed costs were not supported
by either the Council's or the State's accounting records.



                                                                                       Inspector General
                                                                                       1201 New York Avenue, NW
                                                                                       Washington, I)C 2052.5
The Office of Inspector General has reviewed the report and the work papers supporting the
auditor's conclusions. Our review of the auditor's work papers disclosed no instances where
Cotton and Company, LLP did not comply, in all material respects, with generally accepted
government auditing standards.

Our office also provided the Council and the Corporation with a draft of this report for their
review and comment. Their responses are included in their entirety as Appendices A and B,
respectively. The Council disagreed with some of the findings and recommendations in their
response to the draft report. The auditors responded to the Commission's comments in
Appendix C, as appropriate.
                            OFFICE OF INSPECTOR GENERAL
                   CORPORATION FOK NATIONAL AND COMMUNITY SERVICE
                    INCURRED COST AUDIT OF GRANTS AWARDED TO THE
                          OHIO COMMUNITY SERVICE COUNCIL

                                                        Contents
Audit Scope.. .................................................................................................

Summary of Results.. ........................................................................................

Independent Auditors' Report.. ............................................................................

Consolidated Schedule of Claimed and Questioned Costs.. ...........................................

Schedule A: Schedule of Claimed and Questioned Costs for Award No. 94ASCOH036.. .......
   Schedule A-1: Schedule of Claimed and Questioned Costs
      Buckeye Community Hope Foundation.. .......................................................
   Schedule A-2: Schedule of Claimed and Questioned Costs
      Center for Alternative Resources.. ...............................................................
   Schedule A-3: Schedule of Claimed and Questioned Costs
      Coalition on Homelessness.. ......................................................................
   Schedule A-4: Schedule of Claimed and Questioned Costs
      Department of Youth Services.. ..................................................................
   Schedule A-5: Schedule of Claimed and Questioned Costs
      Greater Columbus Arts Council ...................................................................
   Schedule A-6: Schedule of Claimed and Questioned Costs
      Improved Solutions for Urban Systems.. .......................................................
   Schedule A-7: Schedule of Claimed and Questioned Costs
      Mercy Health Partners.. ............................................................................
   Schedule A-8: Schedule of Claimed and Questioned Costs
      Ohio University, APPALCorps.. ................................................................
   Schedule A-9: Schedule of Claimed and Questioned Costs
      Urban Appalachian Council. ..................................................................

Schedule B: Schedule of Claimed and Questioned Costs for Award No. 00ASCOH036.. .......
   Schedule B-1: Schedule of Claimed and Questioned Costs
      Center for Alternative Resources.. ...............................................................
   Schedule B-2: Schedule of Claimed and Questioned Costs
      Coalition on Homelessness.. ......................................................................
   Schedule B-3: Schedule of Claimed and Questioned Costs
      Department of Youth Services.. ..................................................................
   Schedule B-4: Schedule of Claimed and Questioned Costs
      Greater Columbus Arts Council.. ................................................................
   Schedule B-5: Schedule of Claimed and Questioned Costs
      Mercy Health Partners.. ............................................................................
Schedule C: Schedule of Claimed and Questioned Costs for Award No. 00ASFOH036.. . .. . ...
   Schedule C-I: Schedule of Claimed and Questioned Costs
      Buckeye Community Hope Foundation.. .... ... ... ... ... ......... ............. .. ......... ... ...
   Schedule C-2: Schedule of Claimed and Questioned Costs
      Improved Solutions for Urban Systems.. .... ...... ....... ..... .. ... .......... ...... ... ...... ...
   Schedule C-3: Schedule of Claimed and Questioned Costs
      Urban Appalachian Council.. ....... ............... ... ... ...... ..... .... ... ... ... ......... . . . . ....

Schedule D Schedule of Claimed and Questioned Costs for Award No. 98ARCOH036.. .......
   Schedule D-1: Schedule of Claimed and Questioned Costs
      Mercy Health Partners, Toledo Reads Early.. . ......... ... ...... ... ........................ ....
   Schedule D-2: Schedule of Claimed and Questioned Costs
      Youngstown City Schools.. ....... ...... ............ .. . ... ... ...... ..... .... ......................

Summary of Significant Accounting Policies.. ....... ... ...... ... ... . . .... ......... ...... ...............

Independent Auditors' Report on Compliance and Internal Control.. ............... ....... ... ... ....

Attachment A: Status of Findings from the Pre-Audit Survey. ........... .. ............ .... ... . ......

Appendix A: Council's Response to Draft Audit Report

Appendix B: Corporation's Response to Draft Audit Report

Appendix C: Cotton & Company LLP's Comments on the Council's Response
            to Draft Audit Report
                                                   AUDIT SCOPE


        Cotton & Company LLP was engaged to perform an incurred-cost audit of costs claimed by the
Ohio Community Service Council (the Council) and its subrecipients (listed on the following page) for
Program Years 1998-1999, 1999-2000 and 2000-2001. Costs were incurred for these program years from
October 1, 1998, through March 3 1,2002. The audit scope covered financial transactions, compliance,
and internal control testing of the following program awards funded by the Corporation for National and
Community Service (the Corporation):

Program                                        Award No.                  Award Period                   Audit Period*
Administrative                                94SCSOH035                  1010 1194-12131100       10/01/98-12131/00
Administrative                                01SCSOH035                  01/01/01-12/31/03        01/01/01-12/31/01
Program Development                           95PDSOH035                  01/01/95-12/31/01        01/01/99-1213 1/01
 Assistance and Training (PDAT)
Learn and Serve
Disability
Disability
Make a Difference Day (MDD)
ArneriCorps Competitive
AmeriCorps Competitive
AmeriCorps Competitive
AmeriCorps Education Award
AmeriCorps Education Award
Ohio Reads Early
Governor's Initiative
AmeriCorps Formula
AmeriCorps Promise Fellows
AmeriCorps Promise Fellows

  * The end of the audit period is the earlier of the date of grant expiration or the date the Council
  submitted the last FSR (either December 3 1, 2001, or March 3 1, 2002).

  ** These grants were fixed-amount awards; the Council is not required to submit Financial Status Reports (FSRs).
  Our audit scope was limited to testing Council compliance with member eligibility and staffing requirements.

         Audit objectives were to determine if:

                  The Council's financial reports presented financial award results fairly.

                  Internal controls were ;adequateto safeguard Federal funds.

                  The Council and its subrecipients had adequate procedures and controls to ensure
                  compliance with Federal laws, applicable regulations, and award conditions.

                  Award costs reported to the Corporation were documented and allowable in accordance
                  with the award terms and conditions.

            .     The Council had established adequate financial and program management oversight of its
                  subrecipients.
We used the following subrecipient abbreviations in this report:


  Full Name                                                            Abbreviated Name
  Buckeye Community Hope Foundation                                    Buckeye
  Center for Alternative Resources (aka. Pathways of Licking County)   Pathways
  Coalition on Hornelessness                                           COHHIO
  Department of Youth Services                                         DYS
  Greater Columbus Arts Council                                        GCAC
  Improved Solutions for Urban Systems                                 ISUS
  Mercy Health Partners                                                rnP
  Ohio University, AF'PALCorps                                         APPALCorps
  Ohio University, ComCORPS                                            ComCORPS
  United Way of Hancock County                                         UWHC
  United Way of Summit County                                          UWSC
  Urban Appalachian Council                                            UAC
  Youngstown City Schools                                              Youngstown
                                       SUMMARY OF RESULTS


        Our report expresses a disclaimer of opinion on the Consolidated Schedule of Claimed and
Questioned Costs because accounting records supporting claimed costs were not available for audit. As
support for expenditures reported to the Corporation, the Council provided a database of transactions
formulated from financial information provided from the State of Ohio's official accounting system,
CAS. Because of undocumented adjusttnents made to the database and the Council's failure to make
corresponding adjustments to CAS accounting records, claimed costs were not supported by either the
Council's or the State's accounting records.

COMPLIANCE AND INTERNAL CONTROL FINDINGS

        Our report on compliance with laws, regulations, contracts, grants, and internal controls
applicable to the audit of the Consolidated Schedule of Claimed and Questioned Costs disclosed a number
of matters that require correction, including instances of noncompliance and reportable conditions
required to be reported under Government Auditing Standards. These findings are as follows:

        The Council's financial management system is inadequate.

        The Council has inadequate segregation of financial management duties.

        The Council's procedures for distributing salaries and wages is inadequate.

        The Council and certain subrecipients claimed unallowable costs and costs for which no
        documentation was provided to support allowability.

        The Council and certain ~ubrec~ipients
                                            submitted untimely financial reports.

        Certain subrecipients did not comply with program requirements.

        Certain subrecipients did not comply with record-retention policies.

        The Council did not adequately perform monitoring of subrecipients.

        The Council inadequately doc~lmentedits approval and disapproval of grant fimding for its
        subrecipients.

10.     Certain subrecipients were granted partial education awards without adequate justification.

COST FINDINGS

         The Council claimed total costs of $16,410,629 for its Corporation grants from October 1, 1998,
through March 3 1,2002. Of this amount, we questioned claimed costs of $3 1,536 for allowability and
$1,220,5 18 for lack of support, which i s approximately eight percent of total claimed costs. These
questioned amounts exclude questioneld costs for education awards. Costs questioned for allowability are
costs for which documentation shows that recorded costs were expended in violation of laws, regulations,
or specific award conditions or costs that require interpretation of allowability by the Corporation. Costs
questioned for support require additional documentation to substantiate that the cost was incurred and is
allowable.
       Grant participants who successfully complete terms of service under the AmeriCorps and Learn
and Serve awards are eligible for education awards from the National Service Trust. These award
amounts are not funded by Corporation grants, and are thus not included in claimed costs. As part of this
engagement, however, we determined the effect of all member eligibility issues on these awards. Using
the same criteria described above, we questioned education awards of $16,345 for allowability and
$224,5O1 for support.

        Costs and education awards were questioned for the following reasons:

                                                                                        Education
   Questioned for Allowability                                           Costs           Awards
   Contractor Agreement with Employee
   Consultant Fees In Excess of Daily Maximum
   Costs Claimed In Addition to Per Diem
   Costs Not In Approved Budget
   Non-Traditional Uniforms
   Fees for Legal Consultations
   Gifts for Completion of Service
   Interest Charges
   Lack of Compelling Personal Circumstance
   Indirect Costs Charged as Direct Costs
   Overpayment of Member Living Allowances
   Pension Benefit Paid for Member
   Total                                                                 $31.536          $16.345



                                                                                        Education
   Questioned for Support                                                Costs           Awards
   Records Lost/No Documentation Provided                             $ 176,533          $ 49,615
   Inadequate Contractor Agreements                                       19,431
   Inadequate Mileage Logs                                                 1,953
   Internal Evaluation Costs                                                 750
   Missing Background Checks                                              10,655
   Missing Eligibility Documentation                                     170,949          147,119
   Missing Timesheets, Employees                                         639,871
   Missing Timesheets, Members                                            67,109           27,767
   Recalculated Administrative Costs                                      33,775
   Overclaimed Costs                                                      99,492
   Total                                                            -$                  $224.501

        Details of questioned costs and questioned education awards appear in the Independent Auditors'
Report. Schedules A through D detail cost and education award exceptions by grant and are summarized
below:
                                                                          Education Awards
                                             Costs Ouestioned                Ouestioned
Grant No.                Claimed         Allowability   Support        Allowability  Support         Schedule
94SCSOH035
01SCSOH035
95PDSOH035
95LCSOH008
97DSCOH035
01DSCOH035
99MDDOH020
94ASCOH036
00ASCOH036
97EDSOHO10
OOEDSOHO10
98ARCOH036
99ASHOH036
00ASFOH036
98APSOH036
99APSOH036
Totals                 $1 6.410,629         $3 1.536     $1-220.518        $16.345     $224.501



Exit Conference

        We held an exit conference with Council representatives on July 2 1,2003. In addition, we
provided a draft copy of this report to the Council and the Corporation for comment on July 21, 2003.
Their responses, dated August 20,2003, and August 21,2003, respectively, are included as Appendices A
and B to this report. The Council provided specific comments on compliance and internal control report
findings, and we have included these in our report. The Corporation stated that it will respond to all
findings and recommendations when the audit report is issued, and it has reviewed the findings in detail.

Follow-up on Prior Audit Findings

        The Corporation's Office of Inspector General performed a Pre-Audit Survey of the Council in
Fiscal Year 1999 and issued Office of Inspector General Report Number 00-15 dated November 30, 1999.
Our audit followed up on the status of findings and recommendations fiom that report (see Attachment
A).
                         COTTON                                        PANY LLP
                                                  auditors s advisors




                                                   January 17,2003


Inspector General
Corporation for National and Community Service


                                    INDEPENDENT AUDITORS' REPORT

       We were engaged to audit costs claimed by the Ohio Community Service Council for Program
Years 1998-1999, 1999-2000, and 2000-2001 for the awards listed below. These costs, as presented in
the Consolidated Schedule of Claimed and Questioned Costs and the grant-specific Schedules of Claimed
and Questioned Costs (Schedules A through D), are the responsibility of Council management.

Program                                         Award No.                  Award Period                Audit Period*
Administrative                                 94SCSOH035
Administrative                                 01SCSOH035
Program Development                            95PDSOH035
 Assistance and Training (PDAT)
Learn and Serve
Disability
Disability
Make a Difference Day (MDD)
AmeriCorps Competitive
AmeriCorps Competitive
AmeriCorps Competitive
AmeriCorps Education Award
AmeriCorps Education Award
Ohio Reads Early
Governor's lnitiative
AmeriCorps Formula
AmeriCorps Promise Fellows
AmeriCorps Promise Fellows

* The end of the audit period is the earlier of the date of grant expiration or the date the Council submitted the last
FSR (either December 3 1, 2001, or March 3 1,2002).

** These grants were fixed-amount awards; the Council is not required to submit FSRs. Our audit scope was
limited to testing Council compliance with member eligibility and staffing requirements.
        The Consolidated Schedule of Claimed and Questioned Costs and grant-specific Schedules of
Claimed and Questioned Costs are intended to present costs incurred under the awards in accordance with
Office of Management and Budget (OMB) Circular A-87, Cost Principles for State, Local and Indian
Tribal Governments, other applicable OMB circulars, and award terms and conditions. Therefore, these
schedules are not intended to be complete presentations of the Council's revenues and expenses. These
schedules also identify certain questioned education awards. These awards are not funded by Corporation
grants and are thus not included in claimed costs.

         Accounting records supporting claimed costs were not available for our audit. As support for
expenditures reported to the Corporation, the Council provided a database of transactions formulated from
financial information provided from the State of Ohio's official accounting system, CAS. Because of
undocumented adjustments made to the database and the Council's faiIure to make corresponding
adjustments to CAS accounting records, claimed costs were not supported by either the Council's or the
State's accounting records.

       Because of the significance of the matters discussed in the preceding paragraph, the scope of our
work was not sufficient to enable us to express, and we do not express, an opinion on the financial
schedules referred to above.

         We have also issued a report dated January 17,2003, on our consideration of the Council's
internal control and its compliance with laws and regulations. That report should be read in conjunction
with this report.

        This report is intended solely for the information and use of the Office of Inspector General,
Corporation management, the Council, and the U.S. Congress and is not intended to be and should not be
used by anyone other than these specified parties.


                                                 COTTON & COMPANY LLP

                                             By:p
                                              /~ichael/fV.
                                                 -         ~flies~ij$$P& CFE
                                 OHIO COMMUNITY SERVICE COUNCIL
                      CONSOLIDATED SCHEDULE OF CLAIMED AND QUESTIONED COSTS*
                      CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS



                                  Approved             Claimed          Costs Questioned      Awards Questioned
Award No.        7-
                      Program
                          --.--    Budget --.--         Costs       Allowability S u ~ o r t Allowability S u p ~ t Schedule
94SCSOH035     Administrative     $   1,073,625    $    1,055,045
01 SCSOH035    Administrative          508,875           456,701
95PDSOH035     PDAT                    553,287           520,463
95LCSOH008     Learn and Serve         479,500           479,500
97DSCOH035     Disability                81,381            17,330
01DSCOH035     Disability                45,000            13,583
99MDDOH020     MDD                        2,000               734
94ASCOH036     AmeriCorps
                Competitive           8,62 1,895       7,006,901      $10,534     $ 81 1,490   $14,339    $135,538     A
               AmeriCorps
                Competitive           4,797,356        2,985,322          8,633     181,656      2,006      27,767     B
               AmeriCorps
                Ed Award               260,13 1          224,256
OOASCOHO10     AmeriCorps
                Ed Award                92,500
               Ohio Reads
               Early                  1,254,221          534,274          6,582      82,375
               Governor's
                Initiative             765,172           384,462
               AmeriCorps
                Formula               3,574,279        2,525,990          5,787     144,997
               AmeriCorps
                Promise
                Fellows                 75,659            63,3 12
               AmeriCorps
                Promise
                Fellows                138,504           142,756
Total                             -$16.410.629$3.1.536%1.220.518$16.345$224.501



* The above data was compiled from FSRs obtained from the Council and from the Corporation's Web Based Reporting System
(WBRS).




                                                   .Draft for Discussion Purposes Only

                                                                      8
                                                                                                   SCHEDULE A


                        OHIO COMMUNITY SERVICE COUNCIL
                    SCHEDULE OF' CLAIMED AND QUESTIONED COSTS
                 CORPOFWTION FOR NATIONAL AND COMMUNITY SERVICE
                              AWARD NO. 94ASCOH036
                        OCTOBER 1,1998, TO DECEMBER 31,2000


                                                                        Questioned
                                                Claimed         Allow ability   Support              Schedule
Buckeye
Pathways
COHHIO
DYS
GCAC
ISUS
MHP
APPALCorps
UAC
Total                                         $4.630.150            $10.534         $8 11.490

FSR Amount Claimed By Council*                $7.006.901

Education Awards                                                   $14.339          $135.538             Note

* The FSR date is April 29, 2002.   It is marked "incomplete" in WBRS as of the last day of fieldwork.

NOTE

We questioned education awards as described in Schedules A-1 through A-9, as follows:

                                                                  Questioned
                                                           Allowability    Support              Schedule
        Buckeye
        Pathways
        COHHIO
        DYS
        GCAC
        ISUS
        MHP
        APPALCorps
        UAC
        Total
                                                                                       SCHEDULE A-1


                         OHIO COMMUNITY SERVICE COUNCIL
                    SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                 CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                               AWARD NO. 94ASCOH036
                        OCTOBER 1,1998, TO DECEMBER 31,2000


 Buckeye                                                                                       Notes
 Approved Budget (Federal Funds)                                                $242.44 1

 Claimed Costs                                                                  $233.281

 Questioned for Support:
   No Timesheets
   Inadequate Mileage Logs
   1998-1999 Accounting Records Lost (Flood)
   Inadequate Contractor Agreements
   Recalculated Administrative Costs

 Total Questioned for Support

 Questioned for Allowability:
   Interest Charges
   Non-Traditional Uniforms
   Indirect Costs Charged as Direct Costs

 Total Questioned for Allowability                                                   $PZri

 Education Awards Questioned for Support:
   Missing Eligibility Documentation                              $ 5,256
   1998-1999 Member Records Lost (Flood)                           11.815

 Total Education Awards Questioned for Support                                     $17.071

NOTES

1.     Buckeye did not have adequate documentation for its method of allocating costs charged to the
       grant. It allocated labor costs to the grant based on its annual AmeriCorps grant budget.

       According to OMB Circular A-122, Attachment A, Subparagraph A.4, the allocation of cost to
       Federal awards must be in relation to the benefits received. Also, OMB Circular A-122,
       Attachment B, Subparagraph 7.m(2), requires labor costs to be supported by personnel activity
       reports that:

               Reflect an after-the-fact determination of actual activity of each employee. Budget
               estimates do not qualify as support for charges to awards.

               Account for total activity for which the employee is compensated.
             Are signed by the employee or a supervisor.

             Are prepared at least monthly and coincide with one or more pay periods.

     Thus, we questioned for support $16,400 of labor charges and $1,524 for benefit costs claimed
     for Program Year 1999-2000.

2.   Buckeye did not have adequate mileage logs to support transportation costs. Documentation did
     not contain descriptions of geographic locations or other information as required by OMB
     Circular A-122, Attachment A, Subparagraph A.2(g), which states that to be allowable under an
     award, costs must be adequately documented. We questioned $1,953 of mileage transportation
     costs for Program Year 1999-2000.

3.   Buckeye couId not provide member records or accounting transaction records for Program Year
     1998-1999, as required by 45 CFR tj 2541.420, Retention and Access Requirements for Records,
     and AmeriCorps Special Provisions, Record-Keeping. According to the program director, these
     records were stored in a basement and were destroyed when it flooded. However, Buckeye could
     not provide documentation to substantiate the flood. Therefore, we were unable to test costs to
     source documentation. We questioned post-service education awards of $1 1,815 paid to
     members and $92,426 of claimed expenses, because Buckeye did not have records for these
     expenses.

4.   Agreements between Buckeye and contractors hired to work as construction site supervisors were
     inadequate. OMB Circular A-1 22, Attachment B, Subparagraph 39.b(8), states that agreements
     for services provided must:

             Describe the service to be provided.

     0       Estimate the time required to complete the service.

             Specify the compensation rate.

             Include termination provisions.

     This information is required in a contractor agreement to determine allowability of contractor
     costs. Because Buckeye's contractor agreements did not contain the requisite information, we
     questioned $10,725 of contract labor.

5.   Buckeye exceeded its allowable administrative costs in Program Years 1998-1999 and 1999-
     2000, because of the questioned claimed costs. AmeriCorps General Provisions, Administrative
     Costs, states that administrative costs cannot exceed five percent of total Corporation funds.
     Although the statutory limit for administrative fees for a subgrant is five percent, the Council had
     a practice of taking a one percent administrative fee from certain subgrantees. The Council's one
     percent fee was calculated on total costs claimed on the FSR by the subgrantee. The budgeted
     administrative fee for Program Years 1998-1999 and 1999-2000 was four percent. We
     questioned $4,812 of overclaimed administrative costs for Program Years 1998-1999 and 1999-
     2000 as follows:
                                                                 Program Year       Program Year
                                                                   1998-1999          1999-2000
Federal Costs Excluding Administrative Costs                         $92,426           $136,469
Less Questioned Costs                                                 92,426             3 1.578
Total Federal Costs per Audit                                        3 L . A           $104.891

Allowable Administrative Costs at 4%
Administrative Costs Claimed

Overclaimed Administrative Costs                                      $4.62 1             &iu

       Buckeye charged interest costs t.o the grant, which are unallowable under OMB Circular A-122,
       Attachment B, Section 23. We questioned $23 of unallowable interest expense for Program Year
       1999-2000.

       Buckeye claimed costs for non-traditional uniforms for six students that exceeded costs Buckeye
       paid for its traditional uniforms. We questioned the additional $120 paid for the non-traditional
       uniforms per OMB Circular A-1.22, Attachment A, Paragraph 3, which states that a cost is
       reasonable if, in its nature or amount, it does not exceed that which would be incurred by a
       prudent person, and the cost is of a type generally recognized as ordinary and necessary for an
       organization's operation or award performance.

       Buckeye charged overhead costs as direct costs to the program. However, overhead costs are
       costs reimbursed by the four percent administration fee included in the grant cooperative
       agreement and claimed on the organization's FSR. We questioned $833 of overhead costs
       charged as direct costs.

       We tested seven member files and were unable to determine if the members were U.S. citizens
       and at least 17 years of age for three of the members. The files tested did not have documentation
       required by 45 CFR 8 2522.200(b)-(c) for proof of U.S. citizenship or lawful permanent resident
       alien status. To be eligible for AmeriCorps membership, the member must be a citizen, national,
       or lawful permanent resident ali.en. We questioned as unsupported education awards of $5,256
       paid to members.
                                                                                        SCHEDULE A-2


                        OHIO COMMUNITY SERVICE COUNCIL
                    SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                 CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                              AWARD NO. 94ASCOH036
                        OCTOBER 1,1998, TO DECEMBER 31,2000

                - -        -        -


     Pathways                                                                                    Notes
     Approved Budget (Federal Funds)                                                $720.000

     Claimed Costs                                                                  $585.959

     Questioned for Support:
       Missing Eligibility Documentation
       Overclaimed Costs

     Total Questioned for Support

     Education Awards Questioned for Support:
       Missing Eligibility Documentation

     Education Awards Questioned for Allowability:
       Lack of Compelling Personal Circumstances                        $5.435


NOTES

1.       We tested nine of 23 member files in Program Year 1998-1999 and nine of 19 member files in
         Program Year 1999-2000 for eligibility. Two of nine member files in Program Year 1998-1999
         did not contain documentation to support "compelling personal circumstances" or the member
         leaving the program as required by 45 CFR § 2522.230. We questioned $5,435 for education
         awards for these members.

         Also, these two files did not have documentation required by 45 CFR 5 2522.200(b)-(c) for proof
         of U.S. citizenship or lawful permanent resident alien status. The program director did not h o w
         why the previous program director did not maintain required documentation. To be eligible for
         AmeriCorps membership, the member must be a citizen, national, or lawful permanent resident
         alien. We questioned living allowance costs of $1 1,725 for the two members whose files had no
         proof of U.S. citizenship. We would have questioned education awards for these two members
         but they are already questioned for lack of documentation for compelling personal circumstances.

         Two additional member files from Program Year 1998-1999 did not contain either a high school
         diploma or its equivalent. According to 45 CFR Lj 2522.200(a)(2), AmeriCorps participants must:

                 Have a high school diploma or its equivalent; or

                 Not have dropped out of elementary or secondary school to enroll as an AmeriCorps
                 participant; and
        Agree to obtain a high school diploma or its equivalent before using the education award.

Without evidence of eligibility, we questioned the related education awards of $2,863.

Pathways could not provide accounting detail to support $83,925 of costs claimed on its FSRs for
Program Years 1998-1999 and 1999-2000. For Program Year 1998-1999, Pathways claimed
$630,053 on its FSR, while the accounting transaction detail was $592,955. The $37,098
difference resulted from Pathway's inability to provide transaction detail for the period
September 1, 1998, through December 3 1, 1999. For Program Year 1999-2000, total costs
claimed by Pathways on its FSRs were $634,772, while the accounting transaction detail was
$587,945. The $46,827 balance resulted from Pathway's inability to provide transaction details
for the period October 1, 2000, through December 3 1,2000. In accordance with OMB Circular
A-122, Attachment A, Subparagraph A.2(g), costs must be adequately documented to be
allowable under an award. We questioned the $83,925 difference between claimed costs and
costs per the accounting records.
                                                                                     SCHEDULE A-3


                      OHIO COMMUNITY SERVICE COUNCIL
                 SCHEDULE OF CLAIMED AND QUESTIONED COSTS
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                            AWARD NO. 94ASCOH036
                     OCTOBER 1,1998, TO DECEMBER 31,2000



        -COHHIO                                                                       Notes
         Approved Budget (Federal Funds)                               $1.034.500

         Claimed Costs                                                   $889.644

         Education Awards Questioned for Allowability:
           Lack of Compelling Personal Circumstance                        $3.4381

         Education Awards Questioned for Support:
           Missing Eligibility Documentation

NOTES

1.   One member received a partial education award based on compelling personal circumstances in
     Program Year 1999-2000. The compelling personal circumstance noted in the member file
     appears to be a release for cause and not a compelling personal circumstance, as defined in 45
     CFR 5 2522.230(a). The program director was uncertain about what constituted unallowable
     co~npellingpersonal circumstances. We questioned $3,438 for the partial education award
     received by this member for lack of compelling personal circumstance.

2.   We tested 21 member files for eligibility. Three member files in Program Year 1998-1999 and
     eight in Program Year 1999-2000 did not contain high school diplomas or the equivalent. The
     program director indicated COHHIO has accepted either a member's high school diploma or
     GED self-certification. According to 45 CFR 9 2522.200(a)(2), ArneriCorps participants must:

              Have a high school diploma or its equivalent; or

              Not have dropped out of elementary or secondary school to enroll as an ArneriCorps
              participant; and

              Agree to obtain a high school diploma or its equivalent before using the education award.

     Without evidence of eligibility, we questioned the related education awards of $7,088 and
     $16,472 for Program Years 1998-1999 and 1999-2000, respectively.
                                                                                          SCHEDULE A-4


                          OHIO COMMUNITY SERVICE COUNCIL
                      SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                   CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                AWARD NO. 94ASCOH036
                          OCTOBER 1,1998, TO DECEMBER 31,2000


     DYS                                                                                         Notes
     Approved Budget (Federal Funds)                                               $476.765

     Claimed Costs                                                                 $413.328

     Questioned for Support:
      No Member Timesheets

     Questioned for Allowability:
      Overpayment of Member Living Allowances

     Education Awards Questioned for Support:
      Missing Eligibility Documentation


NOTES


1.         Five of eight member files in Program Year 1998-1999 and three of five in Program Year 1999-
           2000 were missing member timesheets. According to DYS, some of the subgrantees were not
           aware of the requirement to fill out actual timesheets for members. ArneriCorps General
           Provisions, Financial Management Provisions, states that the grantee must keep time-and-
           attendance records signed by members and individuals with oversight to document eligibility for
           in-service and post-service benefits. Without evidence of eligibility, we questioned $24,207 for
           member living allowances not supported by timesheets for Program Years 1998-1999 and 1999-
           2000.

           Additionally, two member files in Program Year 1998-1999 and one in Program Year 1999-2000
           did not contain evidence that member background checks were conducted. According to DYS,
           the ArneriCorps program was not receiving priority attention in obtaining support for background
           checks. ArneriCorps Special Provisions, Member Eligibility, Recruitment, and Selection, requires
           background checks of members or employees with substantial direct contact with children or who
           perform service in the homes of children or individuals considered vulnerable. Evidence of
           background checks must be maintained in member files. Costs related to lack of evidence of
           background checks have already been questioned for missing timesheets.

2.         Two of eight members in Program Year 1998-1999 and two of five in Program Year 1999-2000
           were paid living allowances in excess of the annual budget-approved, full-time member living
           allowance amount of $8,340. The cooperative agreement for Award No. 94ASCOH036 states
     that costs claimed must be in the approved budget. According to DYS, living allowances were
     paid to different members by different subgrantees, resulting in excess payments to some
     members. We questioned $284 and $502 in overpaid living allowances in Program Years 1998-
     1999 and 1999-2000, respectively, or $786.

3.   We tested 13 member files. Three of eight member files tested did not contain a high school
     diploma or GED in Program Year 1998-1999. According to 45 CFR 5 2522.200(a)(2),
     AmeriCorps participants must:

             Have a high school diploma or its equivalent; or

            Not have dropped out of elementary or secondary school to enroll as an AmeriCorps
            participant; and

             Agree to obtain a high school diploma or its equivalent before using the education award.

     Without evidence of eligibility, we questioned the related education awards of $4,725.
                                                                                          SCHEDULE A-5


                        OHIO COMMUNITY SERVICE COUNCIL
                    SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                 CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                              AWARD NO. 94ASCOH036
                        OCTOBER 1,1998, TO DECEMBER 31,2000



     GCAC                                                                                        Notes
     Approved Budget (Federal Funds)                                              m
     Claimed Costs                                                                 $508.074

     Questioned for Allowability:
       Costs Claimed in Addition to Per Diem
       Pension Benefit Paid for Member

     Total Questioned for Allowability                                                 $485

     Questioned for Support:
      Missing Eligibility Documentation
      No Staff Timesheets

     Total Questioned for Support                                                  $182.525

     Education Awards Questioned for Support:
      Missing Eligibility Documentation


NOTES

          Thc GCAC program director attended a conference in Orlando, Florida, and used room service
          and other hotel facilities. He charged these expenses to the grant in addition to per diem amounts.
          OMB Circular A-122, Attachment A, Subparagraph A.2(c), Factors Affecting Allowability of
          Costs, states that to be allowable under an award, costs must be consistent with policies and
          procedures that apply uniformly to both federally-financed and other activities of the
          organization. The program director charged these expenses to the AmeriCorps grant, although
          GCAC policy requires adherence to per-diem rates. Because such costs are included in the per
          diem rate, we question the $97 claimed in addition to the per diem.

2.        GCAC did not have adequate documentation for its method of allocating costs charged to the
          grant. It allocated labor costs to the grant based on its annual AmeriCorps grant budget.

          According to OMB Circular A-122, Attachment A, Subparagraph A.4, the allocation of costs to
          Federal awards must be in relation to the benefits received. Also, OMB Circular A-122,
          Attachment B, Subparagraph 7.m(2), requires labor costs to be supported by personnel activity
          reports that:
             Reflect an after-the-fact determination of actual activity of each employee. Budget
             estimates do not qualify as support for charges to awards.

             Account for total activity for which the employee is compensated.

             Are signed by the employee or a supervisor.

             Are prepared at least monthly and coincide with one or more pay periods.

     We questioned $105,879 for unsupported salary costs charged to the grant ($51,332 in Program
     Year 1998-1999 and $54,547 in Program Year 1999-2000).

     Also, in accordance with OMB Circular A-122, Attachment B, Subparagraph 7.f, we questioned
     fiinge-benefit costs related to questioned labor costs of $12,770 ($5,823 in Program Year 1998-
     1999 and $6,947 in Program Year 1999-2000).

     GCAC also paid pension benefits for a second-term member even though no employertemployee
     relationship existed under the AmeriCorps program. We questioned $388 of these pension
     benefits.

3.   We tested six member files for eligibility in Program Year 1998-1999 and eight in Program Year
     1999-2000. Five of six member files in Program Year 1998-1999 and three of eight in Program
     Year 99-00 did not have documentation required by 45 CFR 5 2522.200(b)-(c), for proof of U.S.
     citizenship or lawful permanent resident alien status. To be eligible for AmeriCorps membership,
     the member must be a citizen, national, or lawful permanent resident alien.

     One of eight member files in Program Year 1999-2000 did not have either a high school diploma
     or its equivalent. According to 45 CFR 5 2522.200(a)(2), AmeriCorps participants must:

             Have a high school diploma or its equivalent; or

             Not have dropped out of elementary or secondary school to enroll as an AmeriCorps
             participant; and

             Agree to obtain a high school diploma or its equivalent before using the education award.

     We questioned costs for living allowances and education awards for those who did not have a
     birth certificate andlor proof of U.S. citizenship and the education award for the member without
     proof of either a high school diploma or its equivalent in accordance with 45 CFR § 2522.200.
     We questioned $36,606 of living allowances and $20,990 of education awards (Program Year
     1998-1999) and $27,320 of living allowances and $21,264 of education awards (Program Year
     1999-2000).
                                                                                             SCHEDULE A-6


                           OHIO COMMUNITY SERVICE COUNCIL
                       SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                    CORPORATION FOR NATIONAL AND COMMUMTY SERVICE
                                 AWARD NO. 94ASCOH036
                           OCTOBER 1,1998, TO DECEMBER 31,2000


     ISUS                                                                                           Notes
 Approved Budget (Federal Funds)                                                        $600.0 12

     Claimed Costs

     Questioned for Allowability:
      Indirect Rent Cost Charged as Direct Cost

     Questioned for Support:
      Missing Timesheets
       Internal Evaluation Expense
       Missing Eligibility Documentation
       Recalculated Administrative Costs

     Total Questioned for Support                                                     $241.586

     Education Awards Questioned for Support:
       Missing Eligibility Documentation

NOTES

1.          ISIJS charged overhead costs as direct costs to the program. Overhead costs are, however,
            reimbursed by the four percent administration fee included in the grant cooperative agreement
            and claimed on the FSR. We questioned $3,500 of indirect rent cost charged to the grant as a
            direct expense.

2.          ISUS did not have adequate documentation for its method of allocating costs charged to the grant.
            It allocated labor costs to the grant based on its annual AmeriCorps grant budget.

            According to OMB Circular A-122, Attachment A, Subparagraph A.4, the allocation of costs to
            Federal awards must be in relation to the benefits received. Also, OMB Circular A-122,
            Attachment B, Subparagraph 7.m(2), requires labor costs to be supported by personnel activity
            reports that:

            0        Reflect an after-the-fact determination of actual activity of each employee. Budget
                    estimates do not qualify as support for charges to awards.

                    Account for total activity for which the employee is compensated.

            0       Are signed by the individual employee or a responsible supervisor.
                Are prepared at least monthly and coincide with one or more pay periods.

        Because ISUS cannot provide any support for labor costs charged to the grant, we questioned
        $173,100 of labor costs. Also, in accordance with OMB Circular A-122, Attachment B,
        Subparagraph 7.f, we questioned $34,600 of fringe-benefit costs related to questioned labor costs.

3.      ISUS was unable to provide supporting documentation for its internal evaluation expense. OMB
        Circular A-122, Attachment A, Subparagraph A.2(g), states that costs must be adequately
        documented to be allowable under an award. We questioned $750 for Program Year 1999-2000.

4.      We tested 34 member files for eligibility. Of the 34, ten did not contain either a high school
        diploma or its equivalent. According to 45 CFR 8 2522.200(a)(2), AmeriCorps participants must:

                Have a high school diploma or its equivalent; or

       .        Not have dropped out of elementary or secondary school to enroll as an AmeriCorps
                participant; and

                Agree to obtain a high school diploma or its equivalent before using the education award.

       Without evidence of eligibility, we questioned the related education awards of $10,709.

       We were unable to determine if members were U.S. citizens and at least 17 years of age for two
       files in Program Year 1999-2000. The files tested did not have the documentation required by 45
       CFR § 2522.200(b)-(c), for proof of U.S. citizenship or lawful permanent resident alien status.
       To be eligible for AmeriCorps membership, the member must be a citizen, national, or lawful
       permanent resident alien. We questioned for support $l8,7 17 of living allowances paid to these
       members.

       ISUS exceeded its allowable administrative costs in Program Years 1998-1999 and 1999-2000 as
       the result of questioned claimed costs. ArneriCorps General Provisions, Administrative Costs,
       states that administrative costs cannot exceed five percent of total Corporation funds. Although
       the statutory limit for administrative fees for a subgrant is five percent, the Council had a practice
       of taking a one percent administrative fee from certain subgrantees. The Council's one percent
       fee was calculated on total costs claimed on the FSR by the subgrantee. ISUS documentation was
       reviewed to determine whether or not the Council took a one percent administrative fee from this
       subgrantee. Accordingly, the Council required a one percent administration fee from ISUS for
       the 1998-1999 and 1999-2000 grant years. The budgeted administrative fee for ISUS was four
       percent. We questioned $14,419 of administrative costs, as follows:

                                                                   Program Year        Program Year
                                                                     1998-1999           1999-2000
Federal Costs Excluding Administrative Costs                          $245,204            $269,387
Less Questioned Costs                                                  120,317             110.350
Total Federal Costs per Audit                                         $124.887            $159.037

Allowable Administrative Costs at 4%
Administrative Costs Claimed

Overclaimed Administrative Costs                                       $10.005              $4.414
                                                                                        SCHEDULE A-7


                        OHIO COMMUNITY SERVICE COUNCIL
                    SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                 CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                              AWARD NO. 94ASCOH036
                        OCTOBER 1,1998, TO DECEMBER 31,2000


     MHP                                                                                       Notes
     Approved Budget (Federal Funds)                                             $57_5.267

     Claimed Costs                                                               $488.397

     Questioned for Support:
       Missing Timesheets
       Missing Eligibility Documentation
      Missing Direct Cost Documentation
      Recalculated Administrative Costs

     Total Questioned for Support                                                 $58.469

     Education Awards Questioned for Allowability:
       Lack of Compelling Personal Circumstances

     Education Awards Questioned for Support:
       Missing Eligibility Documentation


NOTES

1.       MHP did not have adequate documentation for its method of allocating costs charged to the grant.
         It allocated labor costs to the grant based on its annual AmeriCorps grant budget or without
         adequate supporting documentation.

         According to OMB Circular A-122, Attachment A, Subparagraph A.4, the allocation of costs to
         Federal awards must be in relation to the benefits received. Also, OMB Circular A-122,
         Attachment B, Subparagraph 7.m(2), requires labor costs to be supported by personnel activity
         reports that:

                 Reflect an after-the-fact determination of actual activity of each employee. Budget
                 estimates do not qualify as support for charges to awards.

                 Account for total activity for which the employee is compensated.

                 Are signed by the employee or a supervisor.

                 Are prepared at least monthly and coincide with one or more pay periods.
     MHP used a telephone time-keeping system that did not provide the ability to record an allocation
     of labor hours. MHP was unable to provide timesheets to support the program director's salary
     and benefit costs charged to the grant. Accordingly, we questioned $26,862 for Program Year
     1998-1999 and $27,858 for Program Year 1999-2000. Also, MHP did not provide personnel
     activity reports to support labor charges of $5,333 for accounting services provided by St.
     Vincent's Hospital to the AmeriCorps program in Program Year 1999-2000. Rather, MHP
     charged budgeted amounts for these services. We questioned $60,053 for labor and fringe-
     benefit costs for support.

2.   We tested 24 MHP member files for Program Years 1998-2000 for eligibility. These files did not
     contain sufficient documentation to support eligibility for seven of the 16 members as required by
     45 CFR 5 2522.200(b)-(c), for proof of U.S. citizenship or lawful permanent resident alien status.
     The program director indicated MHP relied on the Immigration and Naturalization Service 1-9
     form for proof of citizenship. To be eligible for AmeriCorps membership, the member must be a
     citizen, national, or lawful permanent resident alien. We were unable to ascertain from these files
     if four of the members were U.S. citizens. We questioned $2,859 of stipends paid to these
     members.

     In addition, three other files were missing documentation to show that the members had received
     high school diplomas (or its equivalent). The program director stated the Council did not require
     that high school diploma or GEDs be obtained to prove eligibility. According to 45 CFR
     5 2522.200(a)(2), AmeriCorps participants must:
             Have a high school diploma or its equivalent; or

     8       Not have dropped out of elementary or secondary school to enroll as an AmeriCorps
             participant; and

     8       Agree to obtain a high school diploma or its equivalent before using the education award.

     Without evidence of eligibility, we questioned the related education awards of $lO,731.

3.   MHP was unable to provide supporting documentation for $1,244 of health insurance payments
     for members in Program Year 1998-1999 and $720 in Program Year 1999-2000. OMB Circular
     A- 122, Attachment A, Subparagraph A.2(g), states that costs must be adequately documented to
     be allowable under an award. We questioned $1,964.

4.   MHP exceeded its allowable administrative costs in Program Years 1998-1999 and 1999-2000 as
     the result of questioned claimed costs. AmeriCorps General Provisions, Administrative Costs,
     states that administrative costs cannot exceed five percent of total Corporation funds. Although
     the statutory limit for administrative fees for a subgrant is five percent, the Council had a practice
     of taking a one percent administrative fee from certain subgrantees. The Council's one percent
     fee was calculated on total costs claimed on the FSR by the subgrantee. The budgeted
     administrative fee for MHP was five percent and four percent in Program Years 1998-99 and
     1999-2000,respectively. We questioned $3,593 of administrative costs, as follows:
                                                            Program Year      Program Year
                                                              1998-1999         1999-2000
Federal Costs Excluding Administrative Costs
Less Questioned Costs
Total Federal Costs per Audit

Allowable Administrative Costs at 5%
Allowable Administrative Costs at 4%
Administrative Costs Claimed

Overclaimed Administrative Costs                                $ 1.842            $1.751


5.     Two members (one each in Program Years 1998-1999 and 1999-2000) left the program before
       completing the required number of hours, but earned a partial education award. No
       documentation was provided for compelling personal circumstances to substantiate these
       education awards. In accordance with 45 CFR 9 2522.230, we questioned $5,466 for these
       unsubstantiated, partial education awards.
                                                                                        SCHEDULE A-8


                       OHIO COMMUNITY SERVICE COUNCIL
                   SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                CORPORATION FOR NATIONAL AND COMMUNITY SERVlCE
                             AWARD NO. 94ASCOH036
                       OCTOBER 1,1998, TO DECEMBER 31,2000

                        --




        APPALCorps
        Approved Budget (Federal Funds)                                                  $820.824

        Claimed Costs

        Questioned for Support:
          Missing Eligibility Documentation

        Education Awards Questioned for Support:
          Missing Eligibility Documentation

NOTE

We tested 26 member files for eligibility. The files did not contain sufficient documentation to support
the eligibility for seven of the 26 members. The files tested did not have the documentation required by
45 CFR 8 2522.200(b)-(c), for proof of U.S. citizenship or lawful permanent resident alien status. The
APPALCorps program director stated these files were for individuals enrolled before her tenure as
director. She further stated the Council did not require copies of these documents to be maintained before
Program Year 1999-2000. To be eligible for AmeriCorps membership, the member must be a citizen,
national, or lawful permanent resident alien. We questioned for support the $50,287 Federal share of
living allowances paid to these members and $18,900 of education awards in accordance with 45 CFR 5
2522.200 and 5 2522.230.
                                                                                   SCHEDULE A-9


                        OHIO COMMUNITY SERVICE COUNCIL
                    SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                 CORPOFWTION FOR NATIONAL AND COMMUNITY SERVICE
                              AWARD NO. 94ASCOH036
                        OCTOBER 1,1998, TO DECEMBER 31,2000


 UAC                                                                                        Note
 Approved Budget (Federal Funds)                                             $225,101

 Claimed Costs

 Questioned for Allowability:
   Overpayment of Living Allowance

 Questioned for Support:
   Missing Direct Cost Documentation
   Missing Eligibility Documentation
   Recalculated Administrative Costs

 Total Questioned for Support                                                  $20.876

 Education Awards Questioned for Support:
   Missing Eligibility Documentation

NOTES

1.     One member received a living allowance of $14,787, although the maximum approved budget for
       Program Year 1999-2000 for a full-time member was $10,000. The program coordinator stated
       only one site paid more than the approved budgeted amount, and UAC was not aware that a
       member could not be paid a different amount for the living allowance. We questioned the
       overpaid living allowance amount of $4,787.

2.     UAC could not provide support for $8,993 of costs claimed to the grant in Program Year 1999-
       2000. The program coordinator indicated she could not find the support. OMB Circular A-122,
       Attachment A, Subparagraph A.2(g), states that costs must be adequately documented to be
       allowable under an award. Unsupported costs were as follows:
                        Date                Description                Amount
                      12116/99    Contract Payments                    $ 882
                      10121/99    Member Living Allowances              4,5 19
                      10121/99    Contract Expenses                       143
                      03/09/00    Payroll                                 605
                      05/25/00    Equipment                               586
                      0711 1/00   Out of Town Travel                    1,002
                      08/07/00    Depreciation Expense                    224
                      0411 1/02   Reallocation Supplies                 1,032
                      Total                                            $8_993



3.   We tested six member files for eligibility for Program Year 1998-1999 and six member files for
     Program Year 1999-2000. We were unable to determine if the members were U.S. citizens and at
     least 17 years of age for three of six member files for Program Year 1999-2000. The files tested
     did not have the documentation required by 45 CFR 5 2522.200(b)-(c), for proof of U.S.
     citizenship or lawful permanent resident alien status. To be eligible for AmeriCorps membership,
     the member must be a citizen, national, or lawful permanent resident alien. We questioned
     $8,888 of living allowance and $4,725 of education awards for missing member eligibility
     documentation.

4.   UAC exceeded its allowable administrative costs in Program Year 1999-2000 as the result of
     questioned claimed costs. AmeriCorps General Provisions, Administrative Costs, states that
     administrative costs cannot exceed five percent of total Corporation funds. Although the
     statutory limit for administrative fees for a subgrant is five percent, the Council had a practice of
     taking a one percent administrative fee from certain subgrantees. The Council's one percent fee
     was calculated on total costs claimed on the FSR by the subgrantee. The budgeted administrative
     fee for UAC was four percent. We questioned $2,995 of administrative costs, as follows:

                                                                             Program Year
                                                                               1999-2000
        Federal Costs Excluding Administrative Costs                             $165,817
        Less Questioned Costs                                                      22,668
        Total Federal Costs per Audit                                            $143.149

        Allowable Administrative Costs at 4%
        Administrative Costs Claimed

        Overclaimed Administrative Costs                                          $2.995
                                                                                       SCHEDULE B


                        OHIO COMMUNITY SERVICE COUNCIL
                   SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                              AWARD NO. 00ASCOH036
                       JANUARY 2,2001, TO DECEMBER 31,2001


                                                       --      Questioned
                                          Claimed       Allowability   Support           Schedule
Pathways
COHHIO
DYS
GCAC
MHP
Total                                   $1.613.913          $8.633        $181.656

FSR Amount Claimed By Council*          $2.985.322

Education Awards                                            $2.006         $27.767         Note
                                                            -   -




* The FSR date is January 23,2001.
NOTE

We questioned education awards as described in Schedules B-1, B-2, B-4, and B-5, as follows:




        Pathways
        COHHIO
        GCAC
        MHP
        Total                                         $2.006          $27.767
                                                                                             SCHEDULE B-1


                            OHIO COMMUNITY SERVICE COUNCIL
                       SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                    CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                  AWARD NO. 00ASCOH036
                           JANUARY 2,2001, TO DECEMBER 31,2001

                -   -   --




     Pathways                                                                                      Notes
     Approved Budget (Federal Funds)                                                 $280.000

     Claimed Costs                                                                   $214.285

     Question for Allowability:
       Indirect Costs Charged as Direct Cost

     Education Awards Questioned for Support:
       Missing Eligibility Documentation

NOTES

1.        Two of 48 transactions selected for testing were indirect costs charged as direct costs to the grant.
          According to Pathways, these costs were approved in its budget. Overhead costs are, however,
          reimbursed by the administration fee included in the grant cooperative agreement and claimed on
          the FSR. In accordance with OMB Circular A-122, Attachment A, Subparagraph A.2(g), we
          questioned $438 of indirect costs charged as direct costs: $122 for professional liability cost and
          $3 16 for rent allocation.

2.       One of six member files tested did not have documentation of a high school diploma or its
         equivalent as required by 45 CFR 5 2522.200. The current program director stated he was unsure
         why the previous program director did not maintain the required documents. According to 45
         CFR 5 2522.200(a)(2), ArneriCorps participants must:

                    Have a high school diploma or its equivalent; or

                    Not have dropped out of elementary or secondary school to enroll as an ArneriCorps
                    participant; and

                    Agree to obtain a high school diploma or its equivalent before using the education award.

         Without evidence of eligibility, we questioned the related education awards of $2,363.
                                                                                      SCHEDULE B-2


                       OHIO COMMUNITY SERVICE COUNCIL
                  SCHEDULE OF CLAIMED AND QUESTIONED COSTS
               CORPORATION FOR NATIONAL AND COMMIJNITY SERVICE
                             AWARD NO. 00ASCOH036
                      JANUARY 2,2001, TO DECEMBER 31,2001



     COHHIO                                                                                Notes
     Approved Budget (Federal Funds)                                           $583.614

     Claimed Costs                                                             $464.073

     Questioned for Allowability:
       Gifts for Completion of Service

     Questioned for Support:
      Recalculated Administrative Costs

     Questioned for Allowability Education Awards:
       Lack of Compelling Personal Circumstance

NOTES

1.     Two of 53 transactions selected for cost testing were for gifts for members who completed their
       terms of service. For one transaction, COHHIO spent $200 per person per gift for Palm Pilots for
       36 members graduating from the program. COHHIO also purchased 43 grocery store gift
       certificates for graduating members. Theses costs were unnecessary for COHHIO operation and
       award performance. We questioned the Federal share of the gifts, or $5,535 in accordance with
       OMB Circular A-122, Attachment A, Paragraph A.2.

2.    COHHIO exceeded its allowable administrative costs as the result of questioned claimed costs.
      AmeriCorps General Provisions, Administrative Costs, states that administrative costs cannot
      exceed five percent of total Corporation funds. The budgeted administrative fee for Program
      Year 2000-2001 was five percent. We questioned $71 1 of overclaimed administrative costs as
      follows:

                                                                           Program Year
         -                                                                   1999-2000
          Federal Costs Excluding Administrative Costs                        $441,561
          Less Questioned Costs                                                  5,535
          Total Federal Costs per Audit                                       $436.026

          Allowable Administrative Costs at 5%
          Administrative Costs Claimed

          Overclaimed Administrative Costs                                      $LzU
3.   One member received a partial education award for personal compelling circumstances although
     she left the program so she would continue to receive Social Security benefits in Program Year
     2000-2001. This situation does not meet requirements of 45 CFR 5 2522.230. The program
     director stated she was uncertain what constituted an unallowable personal compelling reason.
     We questioned the prorated partial education award of $2,006.
                                                                                        SCHEDULE B-3


                          OHIO COMMUNITY SERVICE COUNCIL
                     SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                  CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                AWARD NO. 00ASCOH036
                         JANUARY 2,2001, TO DECEMBER 31,2001


     DYS                                                                                      Notes
     Approved Budget (Federal Funds)                                             $350.585

     Claimed Costs

     Questioned for Allowability:
       Overpayment of Member Living Allowances

     Questioned for Support:
      No Member Background Checks


NOTES

1.         Two of 11 members were paid $2,303 more in living allowances than the grant-approved amount
           of $9,000 per year per full-time member. According to DYS, living allowances were paid to
           different members by different subgrantees, which resulted in excess payment to members. We
           questioned the $2,303 difference between the approved living allowance amount and the amount
           paid to members.

2.         One of 11 member files tested did not have evidence of a member background check as required.
           AmeriCorps Special Provisions, Member Eligibility, Recruitment, and Selection, requires
           background checks of members or employees with substantial direct contact with children or who
           perform service in the homes of children or individuals considered vulnerable. Evidence of
           background checks must be maintained in member files. Without evidence of eligibility, we
           questioned the living allowance of $10,655.
                                                                                       SCHEDULE B-4


                         OHIO COMMUNITY SERVICE COUNCIL
                    SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                 CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                              AWARD NO. 00ASCOH036
                        JANUARY 2,2001, TO DECEMBER 31,2001

                                     --         -         -




     GCAC                                                                                     Notes
     Approved Budget (Federal Funds)                                            $333.940

     Claimed Costs                                                              $284.792

     Questioned for Allowability:
      Consultant Fees in Excess of Daily Maximum
      Legal Fees

     Total Questioned for Allowability

     Questioned for Support:
      Missing Timesheets
      Missing Eligibility Documentation

     Total Questioned for Support                                                $89.345

     Total Education Awards Questioned for Support:
       Missing Eligibility Documentation

NOTES

1.       GCAC invited a guest artist for a day program and charged the grant more than the allowable
         daily amount for a consultant fee. According to AmeriCorps General Provisions, Financial
         Management Provisions, payments to individuals for consulting services under this grant cannot
         exceed $443 per day. GCAC's employees stated that they were unaware the grant included
         consultant cost ceilings. GCAC paid $550 for the consultant. We questioned claimed costs of
         $107 that exceeded the $443 daily ceiling.

2.       GCAC charged $250 for a telephone consultation with a lawyer regarding a potential member's
         legal status. This fee was charged to the grant as part of member background checks in Program
         Year 2000-2001. The cost was not included in the cooperative agreement budget. We questioned
         the $250 legal fee.

3.       GCAC did not have adequate documentation for its method of allocating costs charged to the
         grant. It allocated labor costs to the grant based on its annual AmeriCorps grant budget.

         According to OMB Circular A-122, Attachment A, Subparagraph A.4, the allocation of costs to
         Federal awards must in relation to the benefits received. Also, OMB Circular A-122, Attachment
         B, Subparagraph 7.m(2), requires labor costs to be supported by personnel activity reports that:
             Reflect an after-the-fact determination of actual activity of each employee. Budget
             estimates do not qualify as support for charges to awards.

             Account for total activity for which the employee is compensated.

             Are signed by the employee or a supervisor.

             Are prepared at least monthly and coincide with one or more pay periods.

     Because the distribution of salaries and wages was not supported by labor distribution reports, we
     questioned $69,952 of labor costs and $5,956 of labor benefits.

4.   We tested eight of 26 member files for eligibility. Two files did not have documentation required
     by 45 CFR 5 2522.200(b)-(c), for proof of U.S. citizenship or lawful permanent resident alien
     status. To be eligible for ArneriCorps membership, the member must be a citizen, national, or
     lawful permanent resident alien. According to the program coordinator, GCAC did not obtain
     proof of U.S. citizenship documentation from its members. We questioned $13,437 of living
     allowances and $4,725 of education awards.
                                                                                         SCHEDULE B-5


                         OHIO COMMUNITY SERVICE COUNCIL
                    SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                 CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                               AWARD NO. 00ASCOH036
                        JANUARY 2,2001, TO DECEMBER 31,2001


     MHP                                                                                         Notes
     Approved Budget (Federal Funds)                                                 $391.950

     Claimed Costs                                                                   $355.968

     Questioned for Support:
       No Employee Timesheets
       No Member Timesheets
       No Direct Cost Documentation

     Total Questioned for Support                                                    $84941

     Education Awards Questioned for Support:
       No Member Timesheets

NOTES

1.       MHP did not have adequate documentation for its method of allocating costs charged to the grant.
         It allocated labor costs to the grant based on its annual AmeriCorps grant budget.

         According to OMB Circular A-122, Attachment A, Subparagraph A.4, the allocation of costs to
         Federal awards must be in relation to the benefits received. Also, OMB Circular A-122,
         Attachment B, Subparagraph 7.m(2), requires labor costs to be supported by personnel activity
         reports that:

                 Reflect an after-the-fact determination of actual activity of each employee. Budget
                 estimates do not qualify as support for charges to awards.

                 Account for total activity for which the employee is compensated.

                 Are sibged by the employee or a supervisor.

         0       Are prepared at least monthly and coincide with one or more pay periods.

         MHP was unable to provide timesheets to support $46,3 15 of program director salary costs
         charged to the grant. MHP used a telephone time-keeping system that did not provide the ability
         to record an allocation of labor hours. Also, MHP did not provide personnel activity reports to
         support labor charges of $2,664 for accounting services provided by St. Vincent's Hospital to the
         AmeriCorps program. Rather, MHP charged budgeted amounts for these services. We
         questioned $48,979 for labor and fringe-benefit costs for support.
2.   Five of eight member files tested did not have timesheets to support hours earned as required.
     AmeriCorps General Provisions, Financial Managemelit Provisions, states that grantees must
     keep time-and-attendance records signed by members and individuals with oversight to document
     eligibility for in-service and post-service benefits. The program director stated that individual
     member hours were tracked via WBRS. Without evidence of eligibility, we questioned $3 l,83 1
     of living allowances paid to these members and $20,679 of education awards.

3.   MHP was unable to provide supporting documentation for a $135 employee bonus paid on June
     1, 2001. The employee bonus was also not included in the cooperative agreement's approved
     budget, and we questioned this amount.
                                                                                             SCHEDULE C


                         OHIO COMMUNITY SERVICE COUNCIL
                     SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                  CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                               AWARD NO. 00ASFOH036
                         AUGUST 1,2000, TO DECEMBER 31,2001


                                                                       Questioned        -
                                                Claimed         Allowability   Support        Schedule
Buckeye                                          $127,867           $1,047    $ 39,182          C- 1
ISUS                                              221,511                       87,121          C-2
UAC                                               213,490            4,740      18,694          C-3

Total                                            $562.868           $5.787    $144.997

FSR Amount Claimed By Council*                 $2.525990

Education Awards                                                               $13.078         Note

* The FSR date is April :29, 2002.   It is marked "incomplete" in WBRS.

NOTE

We questioned educat:ion awards as described in Schedules C-1 through C-2, as follows:

                                                            Questioned for
                                                              Support          Schedule
                Buckeye                                        $ 8,651           C-1
                ISUS                                              4,427          C-2
                Total                                           $13.078
                                                                                       SCHEDULE C-1


                        OHIO COMMUNITY SERVICE COUNCIL
                    SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                 CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                              AWARD NO. 00ASFOH036
                        OCTOBER 1,2000, TO DECEMBER 31,2001


 Buckeye                                                                                       Note
 Approved Budget (Federal Funds)

 Claimed Costs                                                                  $127.867

 Questioned for Support:
    No Timesheets or Personal Activity Reports
    No Direct Cost Documentation
    Inadequate Contractor Agreements
    Recalculated Administrative Fee

 Total Questioned for Support

 Questioned for Allowability:
   Interest Charges
   Costs Not In Approved Budget
   Indirect Costs Charged as Direct Closts


 Education Awards Questioned for Support:
   Missing Eligibility Documentation


NOTES

1.     Buckeye did not have adequate documentation for its method of allocating costs charged to the
       grant. It allocated labor costs to the grant based on its annual AmeriCorps grant budget.

       According to OMB Circular A-122, Attachment A, Subparagraph A.4, the allocation of costs to
       Federal awards must be in relation to the benefits received. Also, OMB Circular A-122,
       Attachment B, Subparagraph 7.m(2), requires labor costs to be supported by personnel activity
       reports that:

               Reflect an after-the-fact determination of actual activity of each employee. Budget
               estimates do not qualify as support for charges to awards.

               Account for total activity for which the employee is compensated.

       0       Are signed by the individual employee or a responsible supervisor

               Are prepared at least monthly and coincide with one or more pay periods.
     We question for support $23,223 of labor costs and $2,594 for fringe-benefit costs.

2.   Buckeye could not provide documentation to support $3,363 for travel, training meeting, and e-
     video costs charged to the grant as required by OMB Circular A-122, Attachment A,
     Subparagraph A.2(g). We questioned this amount.

3.   Agreements between Buckeye and its contractors were inadequate. OMB Circular A-122,
     Attachment B, Subparagraph 39.b(8), contractual agreements for service provided must:

              Describe the service to be provided.
     rn       Include an estimate of time required to complete the service.
              Provide a compensation rate.
     rn       Include termination provisions.

     All of the above information is required in a contractor agreement to determine allowability of
     contractor costs. Because Buckeye's contractor agreements did not contain the requisite
     information, we questioned $8,706 of contract labor.

4.   Buckeye exceeded its allowable administrative costs in Program Year 2000-2001 as the result of
     questioned claimed costs. AmeriCorps General Provisions, Administrative Costs, states that
     administrative costs cannot exceed five percent of total Corporation funds. Buckeye's budgeted
     administrative fee for this program year was five percent. We questioned $1,296 of overclaimed
     administrative costs as follows:

                                                                              Program Year
                                                                                2000-2001
          Federal Costs Excluding Administrative Costs                          $122,398
          Less Questioned Costs                                                   38,933
          Total Federal Costs per Audit                                         $ 83.465

          Allowable Administrative Costs at 5%
          Administrative Costs Claimed

          Overclaimed Administrative Costs                                        $1.296

5.   Buckeye charged unallowable finance charges to the grant. We question $23 in accordance with
     OMB Circular A-122, Attachment B, Subparagraph 23.a(l).

6.   Buckeye claimed $93 for lodging for a program representative and $504 of car insurance
     expenses not included in the original budget. Grant Agreement No. 00ASFOH036-Y7-F-13,
     Paragraph 1, states that only grant-approved costs approved are allowable. We questioned $597
     as unallowablc.

7.   Buckeye claimed $427 of indirect cell phone charges to the grant. Although the cell phones were
     issued to staff, the program was funded by several grants. OMB Circular A-122, Attachment A,
     Subparagraph B.l, states that direct costs are those that can be identified specifically with a
     particular final cost objective, such as a particular award. Therefore, these cell phone costs costs
     should not be charged wholly to the AmeriCorps program. We questioned $427.
8.   Six of seven member files tested did not contain documentation of citizenship as required by 45
     CFR 5 2522.200(b)-(c), for proof of U.S. citizenship or lawful permanent resident alien status.
     To be eligible for AmeriCorps membership, the member must be a citizen, national, or lawful
     permanent resident alien. We questioned post-service education awards of $8,65 1 as
     unsupported.
                                                                                            SCHEDULE C-2


                           OHIO COMMUNITY SERVICE COUNCIL
                       SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                    CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                 AWARD NO. 00ASFOH036
                           OCTOBER 1,2000, TO DECEMBER 31,2001


     ISUS                                                                                           Notes
     Approved Budget (Federal Funds)                                                    $310.628

     Claimed Costs                                                                      $221.511

     Questioned for Support:
        Missing Timesheets
        Missing Direct Cost Documentation
        Recalculated Administrative Costs

     Total Questioned for Support

     Education Awards Questioned for Support:
        Missing Eligibility Documentation

NOTES

1.          ISLIS did not have adequate documentation for its method of allocating costs charged to the grant.
            It allocated labor costs to the grant based on its annual AmeriCorps grant budget.

            According to OMB Circular A-122, Attachment A, Subparagraph A.4, the allocation of costs to
            Federal awards must be in relation to the benefits received. Also, OMB Circular A-122,
            Attachment B, Subparagraph 7.m(2), requires labor costs to be supported by personnel activity
            reports that:

                    Reflect an after-the-fact determination of actual activity of each employee. Budget
                    estimates do not qualify as support for charges to awards.

                    Account for total activity for which the employee is compensated.

                    Are signed by the employee or a supervisor.

                    Are prepared at least monthly and coincide with one or more pay periods.

            Because ISUS could not provide support for labor costs charged to the grant, we questioned
            $76,198 for claimed labor costs and $8,643 of fringe-benefit costs associated with questioned
            labor costs.

2.          ISUS was unable to provide supporting documentation for $247 for an Internal Evaluation
            expense. OMH Circular A-122.,Attachment A, Subparagraph A.2(g), states that a cost must be
            adequately documented to be allowable under an award. We questioned $247.
3.   ISUS exceeded its allowable administrative costs in Program Year 2000-2001 as the result of
     questioned claimed costs. AmeriCorps General Provisions, Adrtzinistrative Costs, states that
     administrative costs cannot exceed five percent of total Corporation funds. Although the
     statutory limit for administrative fees for a subgrant is five percent, the Council had a practice of
     taking a one percent administrative fee from certain subgrantees. The Council's one percent fee
     was calculated on total costs claimed on the FSR by the subgrantee. The budgeted administrative
     fee for Program Year 2000-2001 for ISUS was four percent. We question $2,033 of overclaimed
     administrative costs for Program Year 2000-01 as follows:

                                                                             Program Year
                                                                               2000-2001
        Federal Costs Excluding Administrative Costs                           $214,309
        Less Questioned Costs                                                    85.088
        Total Federal Costs per Audit                                          $129.221

        Allowable Administrative Costs at 4%
        Administrative Costs Claimed

        Overclaimed Administrative Costs                                          $2.033



4.   We tested 17 1.SUSmember files for eligibility. Two of these files did not contain sufficient
     documentatiori as required by 45 CFR 5 2522.200(b)-(c), for proof of U.S. citizenship or lawful
     permanent resident alien status. ISUS indicated it did not maintain member eligibility documents
     in AmeriCorps member files. To be eligible for AmeriCorps membership, the member must be a
     citizen, national, or lawful permanent resident alien. We questioned for support $4,427 of
     education awards paid to these members.
                                                                                       SCHEDULE C-3


                         OHlO COMMUNITY SERVICE COUNCIL
                    SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                 CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                               AWARD NO. 00ASFOH036
                        OCTOBER 1,2000, TO DECEMBER 31,2001



 UAC                                                                                            Note
 Approved Budget (Federal Funds)                                                 $233.630

 Claimed Costs                                                                   $2 13.490

 Questioned for Allowability:
   Overpayment of Living Allowance Amount                                           $4.740        1

Questioned for Support:
  Missing Eligibility Documentation                                $ 1,110                        2
  Unsupported Costs                                                 15,567                        3
  No Direct Cost Documentation                                         465                        4
  Recalculated Administrative Costs                                  1,552                        5

Total Questioned for Support                                                      $18.694

NOTES

       One member received living allowance payments in excess of the approved budget amount of
       $10,000 per year. The program coordinator stated that only one site paid more than the approved
       budgeted amount, and UAC was not aware that a member could not be paid different amounts for
       living allowances. We questioned the excess living allowance of $4,740.

       One of six member files tested for eligibility did not contain documentation as required by 45
       CFR 5 2522.200(b)-(c), for proof of U.S. citizenship or lawful permanent resident alien status.
       To be eligible for AmeriCorps membership, the member must be a citizen, national, or lawful
       permanent resident alien. UAC stated it was not aware of the requirement to maintain a copy of a
       birth certificate in member files to fulfill the member eligibility requirement. We questioned for
       support $1,110 of living allowances paid to the members.

       UAC could not reconcile its FSRs with its accounting detail. The costs reported on the FSR
       exceeded costs in the accounting records. UAC claimed $323,796 on its FSR, while the
       accounting transaction detail was $308,229. The finance manager was not available to provide an
       explanation for the variance. According to OMB Circular A-122, Attachment A, Subparagraph
       A.2(g), costs must be adequately documented to be allowable under an award. We questioned for
       support $15,567 claimed in excess of costs incurred.

       UAC could not provide support for $465 of depreciation, telephone, and miscellaneous costs
       claimed to the grant. The Program Coordinator stated she could not find all necessary support.
     OMB Circular A-122, Attachment A, Subparagraph A.2(g), states to be allowable under an
     award, costs must be adequately documented. We questioned $465.

5.   UAC exceeded its allowable administrative costs in Program Year 2000-2001 as the result of
     question claimed costs. AmeriCorps General Provisions, Administrative Costs, states that
     administrative costs cannot exceed five percent of total Corporation funds. Although the
     statutory limit for administrative fees for a subgrant is five percent, the Council had a practice of
     taking a one percent administrative fee from certain subgrantees. The Council's one percent fee
     was calculated on total costs claimed on the FSR by the subgrantee. The budgeted administrative
     fee for UAC was four percent. We questioned $1,552 of administrative costs, as follows:

                                                                             Program Year
                                                                               2000-2001
        Federal Costs Excluding Administrative Costs
        Less Questioned Costs
        Total Federal Costs per Audit

        Allowable Administrative Costs at 4%
        Administrative Costs Claimed

        Overclaimed Administrative Costs                                          $1.552
                                                                                           SCHEDULE D


                         OHlO COMMUNITY SERVICE COUNCIL
                    SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                 CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                              AWARD NO. 98ARCOH036
                        JANUARY 1,1998, TO DECEMBER 31,2001


                                                                       Questioned
                                                Claimed         Allowability   Support      Schedule
MHP: Toledo Reads Early                         $143,979             $6,582     $14,251       D-1
Youngstown                                       252.41 1                        68,124       D -2

Total

FSR Amount Claimed By Council*                  $534.274

Education Awards                                                                $48.1 18     Note

* The FSR date is April 29, 2002.   It is marked "not yet finalized" in WBRS.

NOTE

We questioned education awards as described in Schedules D-1 and D-2, as follows:

                                                               Questioned for
                                                                 Support        Schedule
                  MHP                                              $ 7,088        D- 1
                  Youngstown                                         41,030       D -2
                  Total                                            $48.118
                                                                                           SCHEDULE D-1



                         OHIO COMMUNITY SERVICE COUNCIL
                    SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                 CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                              AWARD NO. 98ARCOH036
                       SEPTEMBE,R15,1999, TO DECEMBER 31,2001


     MHP: Toledo Reads E a r l y---                                                               Notes
                                                                                                  --
     Approved Budget (Federal Funds)                                                $229.500

     Claimed Costs                                                                  $143.979

     Questioned for Allowability: Contractor Agreement with
      Employee

     Questioned for Support:
      No Direct Cost Documentation
      Missing Member Timesheets
      Recalculated Administrative Fee

     Total Questioned for Support                                                    $14.25 1

     Education Awards Questioned for Support:
       No Member Timesheets


NOTES

1.       MHP executed a contractor agreement with the AmeriCorps program director to work on the
         Toledo Reads Early grant as a contractor. The AmeriCorps program director was not named in
         the Toledo Reads Early approved cooperative agreement budget. Fifty percent of the employee's
         regular time salary was paid from an AmeriCorps grant, and the contractor agreement was used to
         fund the "overtime" beyond the exempt salary. However, MHP could not provide timesheets to
         support the claim of overtime hours. OMB Circular A-122, Attachment B, Subparagraph 39.a,
         states that the cost of professiorial consultant services is allowable if rendered by persons who are
         members of a particular profession or possess a special skill and who are not officers or
         employees of the organization. We questioned $6,582 as unallowable.

2.       MHP was unable to provide supporting documentation for $816 for uniforms, mileage, and
         unidentified expenditures. MHP indicated that supporting documentation may have been lost
         while in storage. OMB Circular A-122, Attachment A, Subparagraph A.2(g), states that costs
         must be adequately documented to be allowable. We questioned $816.

3.       We tested two member files and neither included timesheets to support hours earned.
         AmeriCorps General Provisions, Financial Management Provisions, states that grantees must
         maintain time-and-attendance records signed by members and individuals with oversight to
         document eligibility for in-service and post-service benefits. The AmeriCorps program director
       stated that individual member h.ours are tracked via WBRS. We questioned $1 1,071 of living
       allowances and $7,088 of education awards as unsupported.

4.     MHP exceeded its allowable administrative costs in Program Years 1999-2000 and 2000-200 1 as
       the result of questioned claimed costs. AmeriCorps General Provisions, Adininistrative Costs,
       states that administrative costs cannot exceed five percent of total Corporation funds. The
       budgeted administrative fee for MHP was five percent. We questioned $2,364 of administrative
       costs, as follows:

                                                               Program Year       Program Year
                                                                 1999-2000          2000-2001
Federal Costs Excluding Administrative Costs
Less Questioned Costs
Total Federal Costs per Audit

Allowable Administrative Costs at 5%
Administrative Costs Claimed

Overclaimed Administrative Costs                                    $1.807             %AX2
                                                                                        SCHEDULE D-2


                        OHIO COMMUNITY SERVICE COUNCIL
                    SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                 CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                              AWARD NO. 98ARCOH036
                         JANUARY 1,1999, DECEMBER 31,2001


     Youngstown                                                                                   Notes
     Approved Budget (Federal Funds)                                             $3 11.045

     Claimed Costs                                                               $252.4 11

     Questioned for Support:
      Member Files Not Provided

     Education Awards Questioned for Support:
       No Member Files                                              $37,800
       No Eligibility Documentation                                   3,230

     Total Education Awards Questioned for Support                                $41.030

NOTES

1.       Youngstown could not provide any member files for review for Program Year 1998-1999 as
         required by 45 CFR 8 254 1.42, Retention and Access Requirements for Records, and AmeriCorps
         Special Provisions, Record-Keeping. The Youngstown program coordinator stated that it did not
         retain these documents. Because we could not determine member eligibility, we questioned
         Program Year 1998-1999 living; allowance costs of $68,124 and education awards of $37,800.

2.       One of three member files tested in Program Year 1999-2000 did not contain a high school
         diploma or GED, as required by 45 CFR 5 2522.200. According to 45 CFR 3 2522.200(a)(2),
         AmeriCorps participants must:

                 Have a high school diploma or its equivalent; or

                 Not have dropped out of elementary or secondary school to enroll as an ArneriCorps
                 participant; and

                 Agree to obtain a high school diploma or its equivalent before using the education award.

         Without evidence of eligibility, we questioned the related education awards of $3,230.
                       OHIO CCIMMUNITY SERVICE COUNCIL
             NOTES TO SCHEDULES OF CLAIMED AND QUESTIONED COSTS
           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS


Summary of Significant Accounting Policies

Basis of Accounting

        The accompanying schedules have been prepared to comply with provisions of the grant
agreements between the Corporation and the Council. The information presented in the schedules has
been prepared from reports submitted by the Council to the Corporation and accounting records of the
Council and its subrecipients. The basis of accounting used in preparation of these reports differs from
accounting principles generally accepted in the Unites States of America, as discussed below.

Equipment

         Equipment is charged to expense in the period during which it is purchased instead of being
recognized as an asset and depreciated over its useful life. As a result, the expense reflected in the
Schedules of Award Costs includes the cost of equipment purchased during the period rather than a
provision for depreciation. The Council owns equipment acquired while used in the program for which it
was purchased or in other future authorized programs. The Corporation has, however, reversionary
interest in the equipment. Its disposition, as well as the ownership of any proceeds therefore, is subject to
Federal regulations.




        Minor materials and supplies are charged to expense during the period of purchase.
                        COTTON                                        PANY LLP
                                                auditors advisors




                                                  January 17,2003


 Inspector General
 Corporation for National and Community Service


                                INDEPENDENT AUDITORS' REPORT ON
                               COMPLIANCE AND INTERNAL CONTROL

        We were engaged to audit the Financial Schedule of Costs Claimed by the Ohio Community
Service Council to the Corporation for National and Community Service for the following awards in
accordance with generally accepted aud.iting standards and standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United States:


Program                                        Award No.                 Award Period               Audit Period*
Administrative
Administrative
Program Development
 Assistance and Training (PDAT)
Learn and Serve                                95LCSOH008
Disability                                    97DSCOH035
Disability                                    0 lDSCOH035
Make a Difference Day (MDD)                  99MDDOH020
AmeriCorps Competitive                        94ASCOH036
AmeriCorps Competitive                        00ASCOH033
AmeriCorps Competitive                        00ASCOH036
AmeriCorps Education Award                   97EDSOH010**
AmeriCorps Education Award                   OOEDSOHO lo**
Ohio Reads Early                              98ARCOH036
Governor's lnitiative                         99ASHOH036
AmeriCorps Formula                            00ASFOH036
AmeriCorps Promise Fellows                    98APSOH036**
AmeriCorps Promise Fellows                    99APSOH036**

* The end of the engagement period is the earlier of the date of grant expiration or the date the Council submitted
the last FSR (either December 3 1,200 1, or March 3 1,2002).

** These grants were fixed-amount awards; the Council is not required to submit FSRs. Our audit scope was
limited to testing Council compliance with .member eligibility and staffing requirements.
        Our report dated January 17, 2003, stated that based on the matters discussed in the third
paragraph therein, we were unable to express, and we did not express, an opinion on the financial
schedules.

COMPLIANCE

        Audits performed in accordance with the above standards require that, as part of obtaining
reasonable assurance about whether the financial schedules of the Council are free of material
misstatements, the auditor perform tests of compliance with certain provisions of laws, regulations, and
the grant, noncompliance with which could have a direct and material effect on the determination of
financial schedule amounts. Instances of noncompliance were identified that are required to be reported
under Government Auditing Standards and that are described in the accompanying schedule of findings.
See Findings three through ten.

INTERNAL CONTROL OVER FINANCIAL REPORTING

        Reportable conditions involve matters coming to our attention relating to significant deficiencies
in the design or operation of the internal control over financial reporting that, in our judgment, could
adversely affect the Council's ability to record, process, summarize, and report financial data consistent
with the assertions of management in the financial schedules. See Findings one through seven, and
finding ten.

         A material weakness is a condition in which the design or operation of one or more of the internal
control elements does not reduce, to a relatively low level, the risk that misstatements in amounts that
would be material in relation to the financial schedules being audited may occur and not be detected
within a timely period by employees in the normal course of performing their assigned functions.
Consideration of the internal control over financial reporting would not necessarily disclose all matters in
internal controls that might be reportable conditions and, accordingly, would not necessarily disclose all
reportable conditions that are also considered to be material weaknesses. We consider the reportable
conditions In Findings one, two, three, five, and ten below to be material weaknesses.

FINDINGS

1.      The Council's financial management system is inadequate.

         The Council's financial records do not support claimed costs reported to the Corporation. The
Council maintains, as its primary accounting records, a database of financial information formulated from
financial information provided from the State of Ohio's official accounting system, CAS. The Council
utilizes the information in its database as the basis for all financial reporting related to Corporation grants,
including the FSRs filed with the Corporation and budget reports provided to its Board.

        The Council's Director of Internal Operations routinely moved expenditures in the database from
one Corporation grant to another. The justifications for many of the adjustments were not adequately
documented and, accordingly, an audit trail did not exist to support reasonableness and allowability. One
reason given by the director for some adjustments was that he sometimes intentionally charged
expenditures to the incorrect grant, because funds were not available in the correct grant, and that he later
made corrections. In addition, the infonnation in the database was not periodically saved, weekly or
monthly, as most accounting systems would do. Accordingly, the Council was unable to provide details
of expenditures reported to the Corporation in prior months or to support specific reports.

        DOA was not notified of all adjustments and therefore the State's accounting records were
inaccurate and did not reconcile with the database or with expenditures reported to the Corporation. DOA
was concerned about the number of adjustments being requested by the Council, and it sent a letter to the
Council requesting that the Council takes steps to ensure that financial information was entered correctly
the first time. It appears that, subsequent to the Council's receipt of the letter, it notified DOA of even
fewer adjustments to the database.

       Because of the Council's financial management policies and procedures, expenditures reported to
the Corporation on FSRs could not be supported, and the State's accounting records, including
expenditures in its OMB Circular A-133 audit reports, are incorrect.

        According to 45 CFR 5 2541.200, grantee financial management systems must be sufficient to
permit preparation of reports required by the grant, and the tracing of funds to a level of expenditures
adequate to establish that such funds have not been used in violation of applicable statutes.

        Council representatives stated they had to use the database because the State's financial system
could not record in-kind data or produce budget-to-actual reports as required by the Council's Board.
They further stated that the differences between the database and the State's records were timing
differences that will disappear as each grant is closed out.

Recommendation

        We recommend that the Council use the DOA records as the official accounting records and
prepare supplemental records as needed to track budget information.

2.      The Council has inadequate segregation of financial management duties.

       The Director of Operations has been performing almost all of the financial management duties at
the Council. He is responsible for:

                Obtaining a copy of the: State's financial information, making adaptations to that data and
                incorporating it into the: Council's financial database.

                Making adjusting entries and deleting entries tolfrom the Council's financial database
                without obtaining secondary approvals or maintaining documentation which provides the
                historical record of the changes.

        rn      Notifying the State of Council financial activity.

                Reconciling Council financial information to State financial information.

                Compiling subrecipient financial information.

                Initiating and approving vouchers for payment, approving, screening and monitoring
                vouchers (both at the Council level and subrecipient level) for payment.

                Creating all Council financial reports, including budgetary reports.

                Creating and submitting FSRs to the Corporation.

      Additionally, the Director of Operations has been signing the Executive Director's name to
documents without using the officially sanctioned signature format.
          Key duties such as authorizing, approving, and recording transactions and making payments
  should be assigned to separate individuals to minimize the risk of loss to the Federal government.
  According to 45 CFR 5 2541.200, grantee financial management systems must have effective control and
  accountability over all grant funds and assets.

  Recommendation

          We recommend that the Council separate the financial procedures of authorizing, approving, and
  recording transactions and prohibit the Director of Internal Operations from signing, under any
  circumstances, the Executive Director's name to documents.

  3.      The Council's procedures for distributing salaries and wages is inadequate.

           Salaries and wages of employees are not being charged to Corporation grants based on
timesheets. The Administrative Standards Review performed by the Corporation in July 1999 noted that
the Council was not requiring employees to complete timesheets detailing activities performed. It was
distributing salaries and wages based on estimates of work performed by employees. In response to the
finding in the Standards Review, the Council began requiring employees to complete timesheets detailing
time spent on grants and other activities i n March 2001. The Council's Director of Operations has not,
however, used these timesheets to distribute salaries and wages to grants. He stated that he had planned to
compare actual costs per the timesheets to the budgeted distributions on an annual basis. To date, no
comparisons or adjustments had been made.

         OMB Circular A-87, Attachment B, Section 11, states that charges to Federal awards for salaries
 and wages where employees are expected to work solely on a single Federal award or cost objective will
 be supported by periodic certifications that the employees worked solely on that program for the period
 covered by the certification. These certifications will be prepared at least semi-annually and will be
 signed by the employee or supervisory official having first hand knowledge of the work performed by the
 employee. Where employees work on multiple activities or cost objectives, a distribution of their salaries
 or wages will be supported by personne:l activity reports and must reflect an after-the-fact distribution of
 the actual activity of each employee, be prepared at least monthly, and must coincide with one or more
 pay periods. Budget estimates or other distribution percentages determined before the services are
 performed do not qualify as support for charges to Federal awards, but may be used for interim
 accounting purposes, provided that comparisons of actual costs to budgeted distributions based on the
 monthly activity reports are made at least quarterly. Because our report expresses a disclaimer of opinion,
 we did not question any Council costs.

 Recommendation

         We recommend that the Council revise its procedures for the distribution of salaries and wages to
 be in compliance with OMB Circular A.-87.

 4.       The Council and certain subrecipients claimed unallowable costs and costs for which no
          documentation was provided to support allowability.

          The results of our subgrantee visits identified several sites that claimed unallowable costs or costs
 for which there was no supporting documentation. In some cases, subgrantees were not aware that costs
 had to be claimed in accordance with cost principles, or they were not aware of certain requirements
 contained in the cost principles. Additionally, the Council did not charge labor costs to Corporation
 grants in accordance with OMB Circular A-87.
         Additionally, subrecipients clairned other direct costs that were unallowable in accordance with
the applicable cost circular. Subrecipients claimed unallowable costs for consulting fees that exceeded
daily limits, charged indirect costs as direct costs to grants, and claimed unnecessary costs and interest
charges to grants. This is evidence that the subrecipients were not aware of the cost principles or certain
provisions of the applicable circulars.

       We also noted that subrecipients could not always support claimed costs. Documentation may
have been lost, or proper support may not have been claimed.

        The notes to Schedules A through D describe questioned costs in the amount of $3 1,536, which
are summarized in the table on page 4, included in the Summary of Results. These questioned costs
consist of costs claimed for which docurnentation shows that recorded costs were expended in violation of
laws, regulations, or specific conditions of awards or were costs that require interpretation of allowability
by the Corporation.

        In addition, the notes to Schedules A through D describe unsupported costs in the amount of
$1.220,5 18; this amount consists of costs claimed that require additional documentation to support
allowability. These unsupported costs a:re also summarized in the table on page 4, included in the
Summary of Results.

        Additionally, we noted the following exceptions at the Council. Because our report expresses a
disclaimer of opinion, we did not question any Council costs.

        The Council could not provide timesheets or personal activity reports as required by OMB
        Circular A-87, Attachment B, Section 11.

        The Council could not provide payroll registers or other support for certain labor costs charged to
        Corporation grants.

        The Council claimed costs for consultant fees but could not provide a contract with the consultant
        as required by OMB Circular A-122, Attachment B, Subparagraph 39.b(8).

         The Council charged to its Corporation grant costs beyond customary rates for hotel rooms in
         Columbus, and Newark, Ohio, as well as costs for hotel fees for individuals living in Columbus to
         stay in hotels in Columbus.

         We noted two instances where vouchers submitted for payment by the Council were disapproved
         by the Ohio Department of Aging. The Council made changes to the supporting documentation
         of these vouchers in order to make the vouchers payable by the Department of Aging.

         The Council transferred costs between Corporation grants, but did not provide adequate
         documentation to support that the costs were allowable and chargeable to the grant to which they
         were transferred.

         The Council could not provide support for some costs charged to Corporation grants as required
         by 45 CFR 3 2541.200(b)(2), Standards for Financial Management Systems, Accounting
         Records.

         The Council purchased gifts for retiring personnel and charged the entire amount of the gifts to a
         Corporation grant. This purchase was not necessary and reasonable for proper and efficient
         performance or administration of the grant as required by OMB Circular A-87, Attachment A,
         Subsection C.2.
9.      Food and beverages were charged to a Corporation grant, but such costs were not included in the
        grant budget.

10.     The Council was unable to provide accounting detail for the amount of in-kind match it claimed
        on its FSRs for Program Year 1999-2000. The amounts reported on the FSR exceeded the
        amounts of the documentation the Council could provide.

Recommendation

       We recommend that the Corporation follow up with the Council to determine if questioned and
unsupported amounts should be disallowed and recovered.

5.      The Council and certain subrecipients submitted untimely financial reports.

       The Council did not submit its FSRs in a timely manner. Reports submitted on a quarterly or
semiannual basis are due 30 days after the date the reporting period ends according to 45 CFR 5
2541.410(b)(4). We tested 54 FSRs submitted during the audit period and determined that 27 of these
were submitted late, as follows:       -
                                         Programyear             Tested       Late
                                            1998-1999             28           10
                                            1999-2000             10           5
                                            i!OOO-2001            16           12



        We also noted that, as of the last day of fieldwork, January 17, 2003, the Council had still not
submitted its grant closeout form for Administrative Grant No. 94SCSOH035 for Program Years 1998-
1999, 1999-2000 and 2000-2001. The grant period ended December 3 1,2000. As of January 2003, that
closeout FSR was more than two years late.

        In addition, several of the Council's subrecipients filed late FSRs as follows:

                                                                       Late by Program Year
                                                                       1998-    1999- 2000-
       Subrecipient
       -                                                 Tested        1999     2000   2001              Total
       Buckeye*                                             12            0          1          0          1
       Pathways                                             12            0          1          0          1
       COHHIO* *                                            12            1          3          0          4
       GCAC                                                  8            2          2          0          4
       ISUS                                                 15            0          0          1          1
       MHP***                                               22            0          4          2          6
       APPALCorps                                           11            1          1          1          3
       ComCORPS                                              4            0          0          1          1
       UWSC                                                  4            4          0          0          4
       UAC****                                               4            0          2          0          2

        *      Subrecipient also required to submit PERs. One PER submitted late.
        **     Subrecipient also required to submit PERs. In Program Year 1999-2000, 3 of 4 PERs were submitted late.
        ***    Includes AmeriCorps and Toledo Reads Early FSRs.
        ****   Subrecipient also required to submit PERs. In Program Year 1999-2000, 3 of 4 PERs were submitted late.
       Failure to prepare and submit FSRs in a timely manner with accurate information hinders
Corporation oversight of the Council's financial performance and could result in funding delays.

Recommendation

       We recommend that the Council implement procedures to ensure the timely submission of all
FSRs and grant closeout documents.

6.      Certain subrecipients did not comply with program requirements.

        As part of its monitoring requirements, the Council is responsible for ensuring that subrecipients
are adequately trained in programmatic provisions and maintaining required documentation accordingly.
Our testing of subrecipient member files disclosed that some subrecipients were not complying with all
program requirements, as follows:

                Member files at five subrecipients were missing documentation on mid-term and/or final
                evaluations. Grantees are required to conduct at least mid-term and end-of-term
                evaluations of each member's performance (ArneriCorps Provisions, ArneriCorps Special
                Provisions, Member Records and Confidentiality), documenting that the member has:

                    Completed the required number of hours.
                    Satisfactorily completed assignments.
                    Met other performance criteria that were clearly communicated at the beginning of
                    the service term.

                The following subrecipient files were missing these evaluations:

                                                               Number of Files
                Subrecipient              Period         Tested   Missing Evaluations
               Buckeye                  1999-2001           14                 10
               Pathways                '1998-2001          24                  13
               COHHIO                  '1998-2001          26                  18
               DYS                     '1 998-200 1        24                   6
               ISUS                    :1998-2001          39                  30



                Additionally Pathways, DYS, APPALCorps, and COHHIO had subrecipients with
                second-term members who did not have mid-term and/or final evaluations in their files as
                required by 45 CFR 4 i:522.220(d).

                Member files at eight subrecipients did not always include high school diplomas or
                equivalent records. If a member does not have a high school diploma or equivalent at
                enrollment time, the grantee must obtain a record of the elementary or high school drop-
                out date and the member's written agreement to obtain a high school diploma or
                equivalent before using the education award (ArneriCorps Provisions, ArneriCorps
                Special Provisions, Member Records and ConJidentiality). Failure to obtain this
                information could result in education awards to ineligible individuals. Member files were
                missing high school diplomas or equivalent information, as follows:
                                              Number of Files
 Subrecipient            Period         Tested   Missing Information
                                                              --

Pathways                1998-2001         24                 3
COHHIO                  1998-2001         28                 11
DYS                     1998-2001         24                 3
GCAC                    1998-2001         22                  1
ISUS                    1998-2001         39                 10
Youngstown              1999-2001          8                  1



Several subrecipients' files were missing complete member agreements, as follows:


                                            Number of Files
Subrecipient         Period            Tested    Missing Agreements
ISUS                19!)8-200 1          51
APPALCorps          19!)8-2001           26


Member agreements at ISUS were also missing the signature of the program director or
certifying officer. Of S 1 member files tested for Program Year 1998-2001, 25 files
contained member agreements missing the signature of the program director or certifying
officer.

Ten of 11 member contracts at APPALCorps for Program Year 1999-2000 did not
contain position descriptions. UAC member contracts did not include minimum hour
requirements necessary to obtain a partial education award and also allowed for the
deduction of fines from member living allowances. Buckeye's member contracts did not
include the minimum number of service hours required to achieve an education award,
did not stipulate a GET) must be achieved prior to usage of the education award, and did
not include prohibited activities. Grantees must require members to sign contracts
stipulating (AmeriCorps Provisions, AmeriCorps Special Provisions, Living Allowances,
Member Contracts):

    Minimum number of service hours necessary to be eligible for the education award.
    Acceptable conduct.
    Prohibited activities
    Requirements under the Drug Free Workplace Act.
    Suspension and termination rule.
    Specific circumsta:ncesunder which a member may be terminated.
    Position description.
    Grievance procedures.
    Other requirements as established by the program.

Additionally, neither UAC's member contract or member handbook indicates that a
member may not receive both a living allowance and academic credit for service
activities unless the service activities require a time commitment beyond that expected
for the credit earned, as required by 45 CFR 5 25 19.320.
      During Program Year I 998-1999, ISUS7smember contract included a fine provision;
      member testing also indicated fines were deducted from Living Allowance paychecks of
      some AmeriCorps members.

8     Several subrecipients' files did not contain evidence that background checks were
      performed on members working with children, as follows:


                                                            Number of Files
     Subrecipient                 Period           Tested    No Background Checks
     Pathways                   11998-2001            24
     DYS                        11998-2001            24
     GCAC                       1.998-2001            22

    * One Program Year 1999-2000 member also had an arrest record.
      Programs with members who have substantial direct contact with children must conduct
      criminal record checks on these members and maintain related documentation in member
      files (AmeriCorps Provisions, AmeriCorps Special Provisions, Criminal Record Checks).
      Failure to perform these background checks could result in children being exposed to
      members with histories of criminal violations.

8     Member files at several subrecipients lacked sufficient information to document member
      enrollments and exits. Member enrollment forms must be submitted to the Corporation
      no later than 30 days after a member is enrolled, and member exitlend-of-term-of-service
      forms must be submitted no later than 15 days after a member exits the program
      (AmeriCorps Provisions, AmeriCorps Special Provisions, AmeriCorps Member-Related
      Forms). Subrecipient Eailure to obtain and submit this information promptly results in
      inaccurate Corporation member enrollment records. We noted that enrollment and end-
      of-term-of-service forrrls were missing or lacked certification dates, as follows:

                                                            Number of Files
     Subrecipient                  Period          Tested     Missing Information
     Buckeye                     1999-2001           14                3
     GCAC                        1998-2001           22                4
     APPALCorps                  1998-2001           26                13

     In addition, we noted that enrollment, change of status, and exit forms were not submitted
     w i t h the required period, as follows:
                                                              Number of Files
              Subreci~ient                Period             Tested     Submitted Late
              Buckeye                   1999-200 1               14                   11
              Pathways                  1998-2001                24                    1
              COHHIO                    1998-2001                28                   14
              DYS                       1998-2001                24                   11
              ISUS                      1998-2001                39                   65 *
              APPALCorps                1998-2001                26                    4
              Youngstown                1999-2001                 8                    7

             * This number includes 32 einrollment and 33 exit forms. Four enrollment forms did not have the
             signature of the program's certifying official.

       a       UAC had five members listed on Corporation rosters that were not listed on its internal
               roster. UAC also did not maintain records of its internal roster for Program Year 1999-
               2000.

       a       Several subrecipients cauld not provide sufficient information to support member
               eligibility either because the member file was missing or the eligibility documentation
               was not in the file. Grantees must maintain verifiable records that document each
               member's eligibility to serve based upon citizenship, birth date, and level of educational
               attainment (AmeriCorps Provisions, AmeriCorps Special Provisions, Record-Keeping).
               Records kept in some recipient member files did not include adequate eligibility
               documentation, as follows:

                                                                 Number of Files
              Subreci~ient                 Period         Tested   Missing Information
              Buckeye                    1999-200 1         14                   9
              Pathways                   1998-200 1         24                   2
              COHHIO                     1998-200 1         28                   12
              ISUS                       1998-200 1         39                   3
              APPALCorps                 1998-2001          26                   7
              UAC                        1999-2001          12                   4

               Several subrecipients did not submit progress reports in a timely manner: Buckeye,
               Pathways, GCAC, and ISUS. Particularly, in Program Year 1999-2000, UAC submitted
               three out of four progress reports late (the fourth program report was missing). Buckeye
               submitted 5 of 10 required progress reports late. Of the required progress reports, 3 of
               the 10 were not submitted at all. Quarterly reports are due 30 days after the reporting
               period according to 45 CFR 5 2541.400(b)(l).

      We also noted instances of non-compliance with member time reporting as required by
AmeriCorps Grant Provisions, Member Records and Confidentiality as follows:

               Some member time sheets at ISUS were not signed by supervisors and were not dated.

               At DYS, five of 24 member files tested for Program Years 1998-2001 did not contain
               member timesheets.
       The Federal regulation that requires monitoring and reporting of grant and subgrant activities, 45
CFR 4 254 1.400(a), states:

                Grantees are responsible for managing the day-to-day operations of grant
                and subgrant supported activities. Grantees must monitor grant and
                subgrant supported activities to assure compliance with applicable
                Federal requirements and that performance goals are being achieved.
                Grantee monitoring must cover each program, function, or activity.

Recommendation

       We recommend the Council strengthen its program monitoring procedures to ensure the
requirements of 45 CFR 4 2541.400(a) are met. Specifically, the Council should ensure that subrecipients
are:

        a       Aware of and complying with all significant member eligibility and notification
                requirements.

        a       Aware of and complyirlg with grant requirements for conducting and retaining member
                evaluations.

        m       Maintaining required educational information.

        a       Maintaining all member agreements and including all required provisions in these
                agreements.

        a       Obtaining member background checks when warranted.

        a       Documenting member enrollments and exits promptly and submitting this information to
                the Corporation in a timely manner.

                Maintaining sufficient information to support member eligibility.

        a       Complying with member time keeping requirements.

        a       Complying with grant reporting requirements.

7.      Certain subrecipients did not comply with record-retention policies.

        The Council has not ensured that subrecipients complied with grant documentation retention
requirements. Several subrecipients we:re unaware of record-retention requirements under their subgrant
agreement with the Council. According to 45 CFR 4 2541.420(b), grant records are to be retained for
three years from the date that the grantee submits its final expenditure report. We noted the following:

        rn      Although the Council conducted monitoring visits at UAC, the subrecipient advised us
                the Council did not inform it of the member eligibility requirement for maintaining a
                copy of member birth certificates in member files until July 7,2000.

        0      Pathways' member files lacked several documents, including training records, pay files,
               and health insurance waiver forms. APPALCorps could not provide W-4s for eight of its
               26 members, or W-2s for three of its 26 members. However these files were required as
               part of grant documentation requirements.
                 UAC could not provide: either Progress reports or FSRs for the Program Year 1999-2000
                 planning grant it received from the Council.

                 COHHIO did not have a written record retention policy but indicated "no records are ever
                 thrown away." MHP's records retention policy did not specifically cover AmeriCorps
                 records retention requirements. Buckeye did not have record retention policies in its
                 organization and could not provide any member or cost documentation for Program Year
                 1998-1999. Although Buckeye indicated the documents were lost due to a flood, it also
                 could not provide documentation to substantiate the occurrence of the flood.

                 Youngstown could not provide any member files or supporting documentation for
                 Program Year 1998-1999. For Program Years 1999-2001,W-2s were missing from
                 Youngstown member files. It also did not maintain internal rosters of its members for
                 Program Years 1998-2001.

Recommendation

        We recommend the Council take steps to ensure that all subrecipients are informed of and comply
with the Corporation record-retention requirements by incorporating record-retention requirements in its
subgrant agreements and by providing training and education.

8.      The Council did not adequately perform monitoring of subrecipients.

         The Council did not perform financial monitoring of its subrecipients on an adequate basis. For
the audit period October 1998 through March 2002, the Council indicated there were three Ohio Reads
Early, five Learn and Serve, 11 Promise Fellow, and 35 AmeriCorps subrecipients. According to our
review of the Council's monitoring records, we noted the following that received monitoring: zero of the
three Ohio Reads Early, zero of the five Learn and Serve, one of the 11 Promise Fellows, and 32 of 35
AmeriCorps subrecipients. Thus, the Ohio Reads Early, Learn and Serve, and Promise Fellow recipients
did not receive Council monitoring. Of the AmeriCorps subrecipients monitored by the Council,
monitoring files for 13 of the 32 AmeriCorps subrecipients (approximately 40 percent of the population)
indicated the same unresolved issues existed for several consecutive years.

        Two monitored subrecipients had the same outstanding unresolved issues and had been placed on
probation according to the records of thlz Council: Buckeye and ISUS. However, during our site visits to
these organizations, personnel at both organizations were unaware that their organization had been placed
on probation. Moreover, issues cited in the Council's monitoring records for prompting the probation still
existed at the time of our site visits, e.g., member eligibility, member time reporting, and allowable costs.

         Additionally, the Council stated that its financial monitoring of subgrantees consists of testing
documented support for cost category claimed on the PER, such as staff travel or training, but that the
costs tested are immaterial to overall Federal expenditures of the grant. Council personnel also
aclmowledged that most grant expenditures are labor related, but they do not conduct any monitoring tests
related to labor.

        In our audit of selected subrecipients, we also noted the following conditions:

                GCAC's program director did not prepare time sheets as required by OMB Circular A-
                122, even though 50 percent of his compensation was charged to the AmeriCorps grant.
                Likewise, salary costs and personnel benefits charged to the grant were based on budget
                estimates.
ISUS and Buckeye employees working on AmeriCorps grants also did not maintain
timesheets with labor distribution information, or maintain certification documents as
required by OMB Circular A-122.

At MHP, no time sheets were provided for Program Director labor costs charged to the
AmeriCorps grant.

Pathways, UAC, and MHP could not provide reconciliations of their accounting detail
with their FSRs.

MHP, UAC, Buckeye, and ISUS could not provide documentation to support all direct
cost charges tested.

UAC paid one member a living allowance in excess of its approved budget and paid
another member less than the approved budgeted living allowance. DYS paid six of the
24 members tested living allowances in excess of the approved budget.

Pathways did not have internal controls in place to ensure invoices were approved for
payment by an authorized person before payment.

Neither ISUS, Buckeye:, nor GCAC had proper controls in place to ensure labor costs
charged to the AmeriCorps grant reflected personnel hours actually worked on the grant.
Staff fringe costs charged to the ISUS and GCAC grants were also based on budgeted,
and not actual, labor hours worked. Additionally, member timesheets at GCAC and
ISUS were edited with white-out, or modified by crossing out of data without the
placement of initials or other control marking to determine who or why changes were
made to the timesheets.

ISUS and Buckeye charged consultant's fees to their grants without having executed
contractual agreements with its contractors for services rendered. Such agreements
should include a descri:ption of the service, estimate of time required, rate of
compensation, and ternination provisions as required by OMB Circular A-122,
Attachment B, Subpara.graph39.b(8). Buckeye also did not have adequate controls to
ensure consultants were not paid beyond the Federal maximum daily rate.

Buckeye did not have a. set methodology for claiming employee benefits to the grant.
Rather, it charged benefits based upon amounts available in the budget at the program
director's discretion. The organization also had an inadequately documented cost
allocation methodology. Additionally, Buckeye did not maintain a consistent
methodology for reporting the recipient's share of costs in its FSRs, and such costs were
not easily identifiable in its accounting system.

Buckeye and MHP have internal control deficiencies. At Buckeye, there is a lack of
segregation of duties: the same person who processes accounts payable also reconciles
the bank statements and receives goods. At MHP, there is a segregation of duties issue
related to accounts receivable and the cash match: the person responsible for issuing
invoices also receives payments. There is also no recording of accounts receivable in the
accounting system at MHP.

MHP charged employee contract labor expenses to the Toledo Reads Early program,
which is unallowable per OMB Circular A-122.
                ISUS' manually-prepared budget-to-actual spreadsheet is so complex even the current
                finance personnel at the organization had difficulty explaining how calculations are made
                for some of the budgeted line items. At Buckeye, the accounting system budget module
                is not used to track budget to actual data. Instead, manual processes are used which could
                result in data manipu1at:ionor data input errors.

        .       ISUS paid member living allowances based on attendance and not in increments, despite
                the requirements of AmeriCorps Provisions, AmeriCorps Special Provisions. During
                Program Year 1998-1999, members were paid $50 per day for each day they attended the
                AmeriCorps program.

        rn      GCAC did not obtain appropriate in-kind matching support records to allow it to validate
                the value of contributions it received fiom donors, as required by both AmeriCorps
                Provisions, General Provisions, and OMB Circular A-1 10, Section 23, Cost Sharing or
                Matching. Additionally, GCAC calculated the value of its in-kind contributions based on
                their budget narrative. It also accounted for the same in-kind contribution of $1,879
                twice on its FSR.

        .       Buckeye met their matching requirements through the use of Federal funds and could not
                provide documentation to support those matching funds claimed on its FSRs. MHP did
                not maintain adequate documentation to support the in-kind match it claimed on its FSRs
                and acknowledged in-kind amounts reported on its FSRs are based on budgeted dollars.

         The Council is responsible for ensuring that its subrecipients are aware of and complying with all
grant financial management requirements in accordance with the AmeriCorps Provisions, Responsibilities
Under Grant Administration. Unless these requirements are properly communicated, and subrecipient
performance is monitored, conditions such as those described above can occur and not be detected in a
timely manner.

Recommendation

        We recommend that the Council review its financial monitoring procedures and revise them as
necessary to ensure that all significant grant financial requirements are communicated to subrecipients,
that subrecipients comply with these requirements on a consistent basis, and that follow-up procedures are
included to ensure that the resolution of' deficiencies identified by the Council occurs in a timely manner.
We also recommend that the Council extend its monitoring activities to other than AmeriCorps grant
recipients.

9.      The Council inadequately documented its approval and disapproval of grant funding for its
        subrecipients.

        We noted two matters with respect to the Council's subgrant award process:

                The Council has inadequate documentation for the approval and disapproval of grant
                funding. Additionally, the grading sheets for the individual reviewers are not maintained
                to support funding recommendations.

        .       The Council does not have documented policies and procedures in place to select
                officials to review grant applicants.
        The Federal regulations on awarding of program grants, 45 CFR 5 2521.30(a)(4), states that "in
making subgrants with funds awarded by formula or competition ... a State must: (i) Provide a
description of the process used to select programs for funding."

Recommendation

        We recommend the Council develop and implement policies and procedures for the approval and
disapproval of grant funding.

10.     Certain subrecipients were granted partial education awards without adequate
        justification.

         Pathways and MHP granted partial education awards to members who prematurely exited the
program without documenting the "compelling personal circumstances" necessary to merit a partial
education award. COHHIO granted partial education awards to one member who was terminated due to
job performance issues and to another rnember who decided to leave the program so she would continue
to receive Social Security benefits.

       The AmeriCorps regulation on release of members from terms of service, 45 CFR 5
2522.230(a)(4), states that a "program must document the basis for any determination that compelling
personal circumstances prevent a participant from completing a term of service."

        Subsection (a)(6) of the regulation states that:

                Compelling personal ci~rcumstancesdo not include leaving a program: (i) To
                enroll in school; (ii) To obtain employment, other than in moving from welfare to
                work or in leaving a program that includes in its approved objectives the
                promotion of employment among its participants.

Recommendation

       We recommend the Council provide training to its subrecipients to ensure they are familiar with
and understand the requirements for awarding partial education awards.

        This report is intended solely for the information and use of the Office of Inspector General,
Corporation Management, the Council, and the U.S. Congress and is not intended to be and should not be
used by anyone other than these specified parties.


                                                  COTTON & COMPANY LLP
                                                                                       ATTACHMENT A


                  STATUS OF FINDINGS FROM THE PRE-AUDIT SURVEY OF
                       THE OHIO COMMUNITY SERVICE COUNCIL
                    OFFICE OF INSPECTOR GENERAL REPORT NO. 00-15

         The findings listed below are taken from Office of Inspector General Report No. 00-15. The
status of each finding is addressed below:

Renewal Application Does Not Include Prior Evaluations by Selection Officials

       The Council does not consider prior evaluations by Selection Officials and does not address prior
program year performance in the Renewal Application Process.

         Current Status: The Council indicated it had developed and implemented policy and procedures
related to the consideration of prior evaluations by Selection Officials in its Renewal Application Process.
However, these policies and procedures are not documented in writing and included in the Council's
policies and procedures manuals. We consider this finding open. See our report on Internal Control and
Compliance, Number Eight for the related audit finding and recommendation.

Inconsistent Application of Polices and Procedures in the Selection of Learn and Serve
Subrecipients

       There is an inconsistent application of policies and procedures in the selection of subrecipients for
Learn and Serve Grants.

         Current Status: The Council indicated it had developed and implemented policies and
procedures for the selection of Learn and Serve Subrecipients. However, these policies and procedures
are not documented in writing and included in the Council's policies and procedures manuals. We
consider this finding open. See our report on Internal Control and Compliance, Number Eight, for the
related audit finding and recommendation.

Lack of Written Procedures to Address Grievance Suits

        The Council lacks written procedures to address grievance suits related to the selection process.

        Current Status: The Council has created and implemented written procedures to address
grievance suits related to the selection process. We consider this finding closed.

Consideration of Applicant's Prior A-133 Audit Reports During Selection Process

        The Council does not consider an applicant's prior OMB Circular A-133 audit reports, if
applicable, during the subrecipient selection process. It also does not consistently review these reports
throughout the grant term.

        Czcrrent Status: The Council has established procedures entitled "Audit Process" for reviewing
A-1 33 reports both during the subrecipient selection process and on an annual basis. There are also
Supplementary Provisions delineating additional A-133 requirements for Ohio subrecipients.
Additionally, the Council advised that grant funds are not released until A-1 33 reports have been obtained
and reviewed. We consider this finding closed.
Lack of Procedures to Determine Accuracy of Information Processed through State's Financial
System

         The Council lacks procedures to determine the accuracy of information processed through the
State's financial systems.

         Ctrrrent Statzis: The Council advised us that each year it reviews the Independent Auditor's
report on the processing of transactions by the statewide accounting system to ascertain if proper controls
are maintained over data integrity and financial reporting. However, this process has not yet been
committed to a formal written policy or procedure. Additionally, the Council could not provide either
details regarding the processes and procedures it uses to review the State's audit report or documentation
to support that reviews were completed. See our report on Internal Control and Compliance, Number
One, for the related audit finding and recommendation. We consider this finding open.

Inability to Compare Budget to Actual Expenses by Budget Line Item

         Because of system limitations, the Council does not compare budget to actual expenses by budget
line item for its Administrative and PD,4T grants.

        Czirrent Statzis: Every two months a report entitled "OCSC Operating Budget vs. YTD
Expenditures" is prepared by the Council. This report includes budget line items and presents data for
budget funds, expenditure activity to date, budget funds remaining, and percentage of budget funds
remaining. However, the Council's financial management system is inadequate and unreliable, and the
Council did not adequately monitor its subrecipients. See our report on Internal Control and Compliance,
Numbers One, Six, and Seven for the related audit finding and recommendation. We consider this
finding open.

No Financial Site Visit Checklist

        The Council does not have a checklist developed for financial site visits.

         Czirrent Statzis: The Council has developed checklists for financial compliance testing. These
checklists have also been incorporated into the Council's Policies and Procedures Manual. However, the
Council does not perform thorough subrecipient reviews, i.e., the financial review process consists of
sampling from the "smallest dollar cost category." In our audit of selected subrecipients, we also noted
conditions such as accounting records containing less costs than costs claimed on FSRs, inability to
provide direct cost documentation, and unallowable costs charged to grants. See our report on Internal
Control and Compliance, Number Seven for the related audit finding and recommendation. We consider
this finding open.

Lack of Policies and Procedures Related to Resolution of Deficiencies Identified by the Council

        The Council does not have written policies and procedures related to the resolution of
deficiencies identified by the Council through site visits, review of OMB Circular A-133 reports, andlor
review of quarterly progress reports.

         Current Status: The Council's Policies and Procedures Manual contains guidance for the
resolution of deficiencies identified by the Council through site visits, review of OMB Circular A-133
reports, andlor the review of quarterly progress reports. We consider this finding closed.
Lack of Procedures to Ensure Progress Reports Timely Received

       The Council has procedures to determine that all progress reports are received in a timely manner.
However, for the quarters ending June and September 1999, the master list was not completed.
Therefore, the Council was not readily able to verify that all progress reports were received and reviewed.

        Czcrrent Statzls: In October 1999, the Council began using the Web Based Reporting System,
which electronically records the date subrecipients submit their progress reports to the Council. We
consider this finding closed.

Timely Council Review of Progress Reports

        Council procedures indicate the:review of progress reports and submission of results to the
subrecipients is to be completed within three weeks of receipt. Instead, the Council provides feedback on
progress reports to the subrecipients within three months of the completion of the review.

        Current Status: The three-week time frame was self-imposed by the Council and differed from
the Corporation's three-month requirement. The Council has changed its procedures to reflect the
Corporation's requirement. We consider this finding closed.

No Site Visits or Written Feedback for Learn and Serve Subrecipients

        Council procedures do not include (1) site visit performances for Learn and Serve subrecipients,
or (2) written feedback submission on quarterly progress reports submitted by Learn and Serve
subrecipients.

         Current Status: During fieldwork, the Council advised us it had developed and implemented a
set of procedures for the performance of site visits and the submission of feedback and that these
procedures were applicable to all programs, including Learn and Serve. However, during fieldwork we
noted there were no monitoring files for any of the Learn and Serve grant recipients. Our testing of Learn
and Serve subrecipients indicated there was no documentation to support the Council having ever
monitored their programs. See our report on Internal Control and Compliance, Number Six, for the
related audit finding and recommendation. We consider this finding open.
                                           APPENDIX A




COUNCIL'S RESPONSE TO DRAFT AUDIT REPORT
         A
       '3 1
        P%
        OHIO
 COMMUNITY SERVICE
     COUNCIL
                              Mr. J. Russell George
     51 N. High Street        Inspector General
        Suite 800             Corporation for National and Community Service
  Columbus, Ohio 4321 5       !201 Neu*York Avenue, NW
   Phone: 6141728-2916        Washington, DC 20525
    Fax: 6 141728-292 1
Web Site: www.serveohio.org

                              Dear hlr. George:

                              Attachc d is the formal response of the Ohio Community Service Council to
                              Audit iteport No. 03-05, prepared by Cotton & Company. Our response
                              includes thoughtful 'comments on each finding enumerated ir. the draft, plus
                              attachments which :,upport or clar~fythe response. In general, I believe that
                              many )t' the ctatenents in the audit report are vague, misleading, and/or
                              unsubsmtiated. ?he attachments provided with this respmse were also
                              provi&~dto the ai~ditors(sometimes on more than one occasionj. It is
                              s o m e ~ i l a tdisconcerting, then, to find in the report statements which are
                              refuted by this documentation.

                              With th;r said, the Ohio Community Service Council is committed to
                              continuous improvement. Council members and staff will seriously consider
                              the {wdirors' recc,;nmendations and make appropriate changes where
                              war:-~l,!ted. We look forward to the upcoming negotiations with CNCS staff
                              and fc 1.1 confident tt all audit issues will be. successfully resolved.

                              Thank -*IOU for the arsistance provided by the Office of the lnspector General
                              throug1:mt the audit process.




                               6
                              E cutive Director
                                          Ohio Community Service Council
                                                Response to Audit Report No. 03-05
                                            Audit cortdi~cterlby Cottort & Contpartv, LLP
                    on bekrrlfoftlrr Irtspcctor Gerrerrrl of the Corporrrfiorr for Nrrtiorrnl rid Cornmurti[~~
                                                                                                            Service



1. Finding: The Council's financial management system is inadequate.

     (a) This finding distorts the true picture of OCSC finances.
           T h ~ ssweeping finding, and the decision to decline an opinion on the accuracy of the
           Council's financial records, are based on auditors' issues with the OCSC Financial
           Management System (FMS). This belies the fact that FMS became operational for
           reporting use only in the last six months of the audit period. Until that point OCSC
           relled directly on data from the State of Ohio Central Accounting System (CAS) - the
           very method cited as the auditors' reconmendation below. By failing to distinguish
           between the two reporting methods used during the audit period, Cotton & Company
           halie z~nfairlvdistorted the true picture o f the Co~~ncil'sJinancial
                                                                              management practices
           in grant years 1998-99, 1999-2000, and 2000-01.

     (b) FSl2 reconciliations cited as c;upport for this finding are based on inappropriate methods.
           OCSC fiscal staff recognized the potential for confusion engendered by the change in
           accounting methods and alerted Cotton & Company of this fact during the opening
           conference. [Of particular concern to management was the fact that Phase I1 of the FMS
           implementation remained ongoing at the time of the audit. This process involved the
           rekiew of some 3,000 transactions dated prior to July, 2002, to add program year and
           federal budget class information so as to be commensurate with the structure of the FMS
           database.] For example, 0 C S C fiscal staff suggested that when attempting to reconcile
           previously reported amounts, the proper source documentation would be the financial
           records as they existed at he time the reports were pveyared. Cotton & Company
           eschewed this suggestion and instead insisted on trying to match data from the new FMS
           to reports that were prepared before FMS existed. When the inevitable differences were
           observed (due to shifts in reporting period between the old and new systems) the auditors
           concluded that "the Council was unable to provide details of expenditures reported to the
           Corporation in prior months or to support specific reports." [p. 511. No attempt was
           made to reconcile the data by referring to the original source. In a further distortion, the
           differences were reported as support for the inadequacy of FMS, despite the fact that the
           data jkom FMS was actually wore accumte tlzuu had been reported originall?/.

     (c) Some details presented in support of this finding are inaccurate andlor disregard
         information provided by Council staff.
           Ad-iustments were not adequately documented [p. 5 11: (i) "Structural" adjustments which
           add missing data fields or correct errant data without changing the fimding source to
           which a transaction applies or the transaction amount are made within a "working" copy
           of the data, while an archive table preserves the data in its original format as in CAS. One
           need only compare the tables to find the changes. (ii) Other adjustments are made within
           a separate adjustments table and are coded with a unique trancode making them readily
OCSC R e ~ p o r i st,o~A11d1tReport \o 03-05                      I                                                  Alcgttst 20. 2003
         apparent. Save for three "composite" adjustments that apply to multiple payroll records,
         each adjustment transaction references the original CAS transaction number to maintain
         an audit trail. A "comment" field in the adjustments table documents the reason for the
         adjustment.

         Database was not periodicallv sdved [p. 511: The database was backed up approximately
         once per quarter, although no formal protocol existed. A CD-RW drive was purchased
         for this sole purpose. Copies were stored offsite.

         Intentionallv charged expenditures to the incorrect grant Cp.5 11: The report omits the
         example provided by OCSC'. In program year 2001 the PDAT award was severely
         delayed due to administrative machinations at CNCS; we were advised by the
         Corporation that the funds would be forthcoming eventually and that we could proceed to
         spend funds under our PDAT budget. The costs were charged to the administrative grant
         initially, then moved to PDAT when the award was finally received in August.

         DOA involvement in adjustments [p. 521: (i) DOA's role as fiscal agent is to serve as the
         Council entry point to CAS. Prior to the implementation of FMS, all adjustments were
         made via CAS so required a memo to DOA; there was no other "notification" required.
         The reason there were fewer requests to DOA toward the end of the audit period is due to
         the implementation of FMS; adjustments were posted there unless they involved a change
         in fund (i.e. federal vs. state money). (ii) DOA concern about adjustments is complete
         conjecture on the part of the auiltors. It stems from observation of a form letter sent by
         ODA on our behalf to State Accounting requesting an adjustment that could not be
         entered online. Because State Accounting discourages adjustments unless truly
         necessary, the letter ended with a statement that staff have been reminded to process
         transactions correctly the first time. DOA uses the same fonn letter for adjustment
         requests it submits on its O W L behay DOA has no authority over Council operations so
         would not have issued the purported admonishment.

          FMS-CAS reconciliation pro-         [Omitted]: The audit report fails to mention the written
          protocol, twice demonstrated to auditors, that is used to ensure that (i) the sum of all FMS
          adjustments is zero: and (iii) the sum and transaction count of items in the working table
          of CAS data matches the sum and transaction count of items in the CAS archive table.
          This protocol is applied every month as new CAS data is imported into the FMS
          database.

     (d) FMS was developed by OCSC in response to a directive from CNCS. The Cotton &
         Company recommendation for Jii:; finding contradicts the CNCS mandate.
          The audit recommendation is that the Council use CAS for financial reporting (as was
          done until mid-2001). But a 1999 Administrative Standards Review by CNCS mandated
          that the Council change its reporting system. The budget amounts in CAS represent state
          allocations by fiscal year, which bear no relationship to grant budgets by calendar year.
          Although CAS does have a modest grant function, it does not allow for grant budgeting.
          Further, CAS budgets are stated by state objects of expenditure, which are not consistent
          with the budget categories used by CNCS. As a result, the Council's position on the
          federally-required budget-to-actual capacity had been to rely simply on the bottom line
          budget total compared to the reported expenditure total. The CNCS review deemed this
              to Audit Report N o . 03-05
OCSC Rcsl~onrt~                                     2                                      August 20.2003
        practice unacceptable; in its final report CNCS mandated that OCSC develop a
        budgetary reporting system that could generate budget-to-actual reports by funding
        year at the expense class level.

        One option open to the Council (and reportedly used in some states) would have been to
        purchase a commercial accounting package and operate a "shadow systemw- processing
        each transaction both in CAS and again in-house. This was judged to be impractical,
        given the limited administrative staff. Another option was to develop some type of
        " c r ~ ~ ~ w a l to
                          k ) ' translate state object codes into the budget classes used by CNCS.
        However, this would not have solved the issue of defining transactions by budget year.
        The solution adopted was to activate "user-optional" codes in CAS to represent grant
        year and federal expenditure c l ~ s s .An Access database was created based on the revised
        CAS coding and downloaded CAS data was imported to create the first of three primary
        "modules" within FMS. [The other primary modules, for budgetary and in-kind data,
        were adapted from existing spreadsheets.] This was practical and cost-effective,
        requiring only five additional keystrokes per voucher. And with budget and in-kind data
        now recorded in the same dalabase as expenditure data, the new Financial Management
        System not only met the criteria imposed by CNCS, it provided a single lens through
        which to view the entire OCSC financial picture. [See Attachment 1.]

         Following an introduction to FMS at the start of the audit process, Cotton & Company
         audltors complimtated the Council's ability to develop and implement such a complex
         system in-house in less than two years. This initial positive reaction to FMS on the part
         of the auditors has (,erved to imagnify the Council's concern with the ultimate finding of
         inadequacy presented in the audit report. A careful reading of the report reveals that the
         weaknesses cited can be distilled to the single issue of adiustments to the FMS data. In
         particular, the observations of Cotton & Company regarding the impact of non-CAS
         adjustments on state A-133 audit reports are most instructive as they address a dimension
         that had not pre\.iously been ccnsidered by Council fiscal staff. During the upcoming
         resolution phase of the audit we will counsel with CNCS to resolve the conflict between
         the recommended course of action and the existing reporting mandate. and will take
         whatever actions are necessary to ensure a financial system that is both functional and
         compliant.




OCSC Resporlse ro Audrr Report No. 03-05
2. Finding: The Council has inadequate segregation of financial management duties.

    We concur with this finding, but disagree with the assessment of materiality and the auditors'
    recommendation for addressing the problem.

    Considering the limited number of administrative staff within the Council office, segregation
    of duties has always been a challenge. Addition of a Business Manager position in 1998 had
    helped to mitigate the issue. The position became vacant in March, 2002, and could not be
    refilled because of a hiring freeze imposed by executive order of the Governor to combat
    state budget shortfalls. Thus Cotton & Company observed the Director of Internal
    Operations (DIO) handling duties previously assigned to the Business Manager as well as his
    own managerial duties of expenditure approval, budgeting, reporting, etc. Had they
    witnessed Council operations during the audit period (Program Years 1998-99 to 2000-01)
    they would have observed the Business Manager initiating all day-to-day transactions
    (purchase orders. vouchers, requests for payment, etc.); serving as the primary financial
    contact with DOA, vendors, and other clientele; maintaining financial files; and managing
    computer/network re.,ources.

    In the fall of 2002 it became apparent that funding for the Business Manager position would
    not be restored and Council supervisory staff began devising a plan for reorganizing of job
    duties within the office. The restructuring occurred in April, 2003, creating a greater
    separation than had existed with the Business Manager position. The computerized
    Workflow system was reconfigured to eliminate voucher initiation by the Director of Internal
    Operations. That phase of the f~scaloperation has been delegated to the Program Assistant
    (subgrant-related tranbactions) and the Executive Secretary (other payments). Approval of
    subgrant transactions now is assigned to the Grants Officer; the DIO continues to approve
    transactions initiated by the Executive Secretary. The Executive Secretary receives any
    checks which are rece~vedby mail, and restrictively endorses them upon receipt prior to
    forwarding to the DIO for preparation of deposit paperwork. She also prepares the
    documents for drawing funds from HHS to cover processed vouchers; the DIO reviews and
    signs the final submission before it is sent to the Department of Aging. Actual draft of
    federal funds and deposit of all funds in CAS continues to be handled by DOA staff. The
    Executive Secretary is the primarq ont tact for vendors and the Department of Aging. The
    DIO is the only person in the office with the expertise to handle computer systems at present,
    but we have retained a volunteer intern to assist in this effort. [The report mistakenly
    identifies the DIO as responsible for compiling subrecipient financial information; this task is
     assigned to the Grants Officer.]

    We disagree with the assessment of Cotton & Company that this finding represents a material
    weakness. To reach such a conclusion the auditors apparently overlooked the inherent
     separation of duties that exists within the state government structure but outside the bounds
     of the Council office. All payrntvzts require action at DOA and at State Accoltnting in order
    fhr a state warrant to he gener-uted. This automatically reduces the risk of misappropriation
     of funds to a relatively low level, which definition contra-indicates an assessment of
     materiality. Nevertheless, seglegation of duties to the extent possible within the Council
     office remains an important element in our risk-reduction efforts, serving to forestall false
     allegations of impropriety which can be as damaging as actual illicit activity.
O C ' C Kespon 71, r o Audir Report No 03-05      1                                      August 20, 2003
    As regards the Cotton & Company recommendation that the DIO not sign documents on
    behalf of the Council, we note .that the Executive Director is, by state law, the only legal
    signator for Council documents. State law also spells out the parameters within which
    signature authorization may be delegated to other staff, and the present delegation is within
    those parameters. Additionally, Council policy prohibits both the DIO and Executive
    Director from approving payments to themselves. We will take under advisement the
    auditors' recommendation but feel that the restructuring of duties outlined above is a more
    appropriate response to preventing over-concentration of authority in one staff member.




OCSC Rt.spo11.w to Audit Report N o . 0.;-05                                          August 20. 2003
3. Finding: The Council's procedures for distributing salaries and wages is (sic)
   inadequate.

   The facts as stated in the audit report on this issue are incorrect, leading to an incorrect
   conclusion. The true facts are as follows:

   Through 1213 112000, staff salaries were not split among multiple grants. All salaries were
   paid from the Administrative grant (or related state match), except for one FTE which was
   paid from PDAT. Circular A-87 requires time and effort documentation only in cases where
   time must be distributed to multiple grants. Lacking the need for distribution, the timesheets
   submitted each pay period by employees met the requirement for certification of hours
   worked. This fact was acknowledged by the Corporation during the 1999 Administrative
   Standards Review.

    While accepting the Council position that reporting to date met the standards of Circular A-
    87, the 1999 Review Team recornmended that a system for time distribution be developed in
    event that multi-grant distribution became necessary, and to avoid the potential for audit
    questions.

    The Council developed a revised Microsoft Excel-based time sheet that included time and
    effort reporting, then rorwarded to CNCS a proposal for a cost distribution procedure based
    on the time sheet data. Because state payroll reports do no break out the cost of each
    employee's salary and benefits, the proposed distribution system was based on a complicated
    pro-ration of costs bi~sedon hourly rates, time on duty, etc. CNCS rejected the cost
    distribution system as proposed, claiming that because it was based on a single pay period it
    could skew the distribution of vacation and leave costs. OCSC was instructed to devise a
    system where the distribution period encompassed "at least three months".

    A new system was devised and forwarded to CNCS for approval. In the mean time, staff
    continued to use the "new" t i m e s k t s containing the time and effort component. Due to
    staffing changes and other adminisiiative delays at CNCS, approval for the new system was
    not received until February 20, 2002. With the loss of the Business Manager position, the
    efforts to devise and implement the new Financial Management System, and the demands of
    the Cotton & Company audit, adjustments based on the approved time and effort distribution
    system were delayed and had not been accomplished at the time of the audit.

     During the audit field work, the 1310 advised Cotton & Company staff of his intent to process
     time and effort cost distributions on an annual basis as part of closing out each budget year.
     The auditors pointed out the Circular A-87 requirement as cited in the report that
     distributions be made at least quarterly. Accordingly, the plans for annual distribution of
     costs have been abunctoned.

     The fact that cost distributions had not been booked at the time of the audit reflects the time it
     took to get CNCS approval of the distribution mechanism and the relative urgency of the
     distributions as compared to other responsibilities such as the audit. It does not follow that
     Council procedures are ir~ntieqrinrras claimed in the report. In March, 2003, the revised
     distribution system was used to mi, I 3istributions in FMS for all staff time between January,
     2001 and March, 2003. Adjustments were processed as of June 3oth for time and effort
     reported in the second quarter and the quarterly adjustment schedule will be continued in the
OC!;C Rrsl~on.\e to Audit Rel~ortNo. 0.: 05        6                                            20. 2003
                                                                                           AL~RUSI
future. Worksheets showing the calculation of all adjustment amounts are retained as
documentation.

[We note for clarification that OCSC employees have completed timesheets since the
creation of the Council in 1994. This is indisputable, considering that the state payroll
system requires timesheets for generation of paychecks. The wording in the report [p.53]
may give the impression that timesheets were not used until March, 200 1.]




                                                                               August 20. 2003
4. Finding: The Council and certain subrecipients claimed unallowable costs and costs for
   which no documentation was provided to support allowability.

   We recognize that Cotton & Company are obliged by Governmental Accounting Standards to
   report exceptions noted in the course of the audit. We also recognize that it is the
   Cosporation, and not Cotton & Company, that will ultimately make the determination as to
   allowability of the questioned costs. For that reason, we simply acknowledge the $31,536
   plus $1,224,742 in questioned and unsupported subgrantee costs, respectively, noted in
   Schedules A through D; and we assert our willingness to work with the Corporation and the
   individual subgrantees to resolve said costs in an appropriate manner, including where
   necessary recovery of disallowed costs from the subgrantees. Our legal counsel in the state
   Attorney General's Office has advised us that the state can assist us in collection efforts,
   should that become necessary.

   Similarly, questioned costs from Council administrative operations also will be resolved
   directly with the Corporation. However, due to the public nature of this report, we feel
   obliged to address briefly the alleged exceptions at the Council:

              Missing, timesheets: There was ONE payroll expenditure for which the
              payroll file could not: be located. The payroll files in the Council office
              are actually duplicates; the originals are retained by the Department of
              Aging. However, when we attempted to obtain the original file from
              DOA, they could not locate it either. This is simply a filing problem.
              That time sheets did in fact exist is irrefutable, given that employees
              cannot be paid without time sheets.

              Pavroll registers: Payroll registers are filed with the corresponding time
              sheets, so again ONE pay period was missing. See above.

              Consultant fees: One contractor was paid $886 for two days of service as
              a meeting facilitator. The voucher presented to Cotton & Company in
              suppoi-t of the transiiction included a "contract letter" spelling out the
              terms of the contract; this is standard state policy for agreements of $1,000
              or less, per the State Accounting Manual. Auditors acknowledged receipt
              of the contract letter but refused to accept it as appropriate.

              Hotel rooms: One pa.yment was for a "room rate" which included a meals
              package and so appeared to be over customary rates; in another case, hotel
              costs were paid for Council staff who spent the night at a Columbus hotel
              as chaperones for the Ohio Youth Action Council.

              Disapproval of vouchers bv DOA: The Depnrtmerrt of Aging has no
              cr~tthor.i[vto approve or reject Cowrcil tr-ans~rctioris. If vouchers are
              rejected by State Accounting, they are retunled to OCSC via DOA; a
              cover sheet provides instruction for cosrection and resubmission. This is
              entirely within state policy.




                                                                                       August 20, 2003
                   Transfers: Except fc.r three "aggregate" entries, the FMS database
                   includes a reference to the original transaction number in CAS and a
                   "Comment" field noting the reason for the adjustment.

                   Transaction support: Cotton & Company requested documentation for
                   103 transactions. Nine of the 103 items were duplicates, making a net
                   request of 94 documents. Council staff produced 92 of the requested 94
                   documents. One of the missing items was the payroll record noted in Item
                   #1, above. ONE other document could not be found in the files.

                   Gifts: The "gifts" referred to here are recognition items for retiring
                   Council members (who serve as unpaid volunteers) - not for paid
                   personnel. Average cost of the items was approximately $50, less than the
                   federal de minintus standard. We submit that this is a reasonable cost,
                   considering that some recipients had served on the Council for six years
                   without compensatior~. [The recognition items have been eliminated in the
                   last two budgets due to lack of available funds.]

                    Food and beverages: These were costs for meetings, and were included in
                    the budget as such.

                    In-kind match: All in-kind match is documented by a receipt signed by
                    the provider. Our notes to the audit referenced no issues with match
                    documentation; withcut specifics we can offer no further explanation.

    The Council is strongly commi1:ted to effective stewardship of federal funds as guided by
    federal cost principles and OM13 Circulars. We remain confident that the Corporation will
    find these costs to be both reasor~ableand allowable.




OC8YCRespor~.reto Audit Report No. 03-05                                                 August 20, 2003
5. Finding: The Council and certain subrecipients submitted untimely financial reports.

    The Council makes every attempt to file FSR's in a timely manner, but acknowledges the
    need for further improvement in this effort. We note for the record that of the 54 FSR's
    tested, 17 were "aggregate" reports for which Council timeliness is dependent on the receipt
    of all subgrantee FSR's. All 17 of these aggregate reports were filed at least one day late.
    Even so, a fair number of FSR's for Council administrative funding were less than timely.

    By contrast, during the same period there were 12 PMS-272 reports filed, and not one of
    these was late. We will take appropriate actions to improve our FSR reporting to a similar
    standard.

     Several grant closeouts remained outstanding as of the end of the audit field work in January,
     2003. We had been in ongoing contact with the Grants Office at CNCS regarding the delay.
     The closeouts that remained unresolved in January, 2003, stemmed from our inability to
     access records from the Department of Youth Services (DYS), which served as the Council's
     fiscal agent until July, 1997. Because this issue resulted from the fact that CNCS had
     allowed some awards to run for six years before initiating closeout, there was a willingness
     on their part to acconimodate our situation. As of July, 2003, CNCS has certified the
     completion of all pending grant closeouts.

     As noted above and in the chart on page 55 of the audit report, timely reporting by
     subgrantees has been an ongoing problem. The noticeable improvement in performance in
     program year 2000-01 is due to changes in policylpractice implemented to curb late reporting
     by subgrantees, including: (i) distriP4on of past due notices; (ii) withholding of payments to
     subgrantees pending submission of reports; (iii) inclusion of subgrantee reporting record as
     an element of consideration in the renewal funding process. With continued emphasis on
     the need for timely reporting and reminders of upcoming reporting deadlines at quarterly
     subgrantee meetings, the improvement seen in 2000-01 has continued to the present.




 OCSC Resl~onst,to Audrt Report N o . Oj-05                                             August 20, 2003
6. Finding: Certain subrecipients did not comply with program requirements.

    We reject the conclusion implicit in the recommendation for this finding, that subrecipient
    non-compliance is an indication of faulty monitoring procedures. Throughout the brief
    history of AmeriCorps, program requirements and/or their interpretations have changed. The
    Council routinely updates its monitoring protocol to reflect the most current program
    requirements. By contrast, the auditors' testing procedures were based on current program
    requirements; proper testing would have been based on the program requirements as they
    existed for the period under scrutiny.

    The Council takes seriously its responsibility to inform and educate subrecipients about
    program requirements. [Refer to Attachment #2 for a summary of training provided to
    subrecipients during the audit period.] We acknowledge that our training efforts have not
    been able to eliminate all instances of subgrantee non-compliance. We will continue to
    search for ways to make training more effective in promoting compliance in subgrantee
    programs.




 OC.SC Res/~on!ero Audit Report No. 03-05
7. Finding: Subrecipients did not comply with record-retention policies.

    We acknowledge that some Subrecipients did not comply with record retention policies. At
    the same time, we contend that the Council has taken every reasonable step to inform all
    subrecipients to maintain records for three years following the final FSR submission. The
    requirement is included in our grant provisions, and is highlighted at the annual subgrantee
    orientation. Our monitoring protocol queries subgrantees about their retention policies. The
    requirement is reiterated in instructions provided to subgrantees for closeout of annual
    budgets and once again in close-out letters sent to recipients at the end of each budget year
    and grant cycle. In May, 2002, the Council issued a memo to subgrantees, following receipt
    of clarification from CNCS that the retention period begins with submission of the Council's
    final FSR (as opposed to the subgrantee's final FSR, as had been assumed in the past).




OC'SC Res1~on.wlo Aud~rReport No. 03-6.5                                              August 20. 2003
8. Finding: The Council did not adequately perform monitoring of subrecipients.

   During the audit period (and continuing to the present) the Council used a risk-based
   approach to subrecipient monitormg which does not require an in-depth, site visit monitoring
   protocol for subgrants of less than $50,000. This practice was endorsed by the Corporation
   as prudent and practical during the pre-audit survey conducted for the Inspector General in
   Program Year 2000-01. Progress and financial reports (except for fixed-award grantees),
   required quarterly meetings, and regular communication are part of the ongoing interaction
   with these subrecipients. (Site visits are not ruled out, depending on the situation.) For
   subrecipients receiving more than $50,000 an annual program monitoring is the norm. The
   Council's sampling protocol calls b r review of 15-25% of member files, depending on
   program size. This was found to be acceptable during the Administrative Standards Review
   process. Financial monitoring is conducted using on-site visits or a desk-review procedure,
   on a rotating schedule. [See Attachment #3 for a copy of the Council policy and protocol for
   program and financial monitoring,.]

   The auditors' claim that there were no monitoring tests related to labor is in error. Council
   staff did review time sheets for program staff; however, copies had not been retained to
   document this fact.

   In support for the claim of inadequate monitoring, the auditors list reportable conditions that
   they uncovered in thei: audit of subgrantees. This argument is fallacious in two respects.
   First, Cotton & Company did not cross-check the conditions against Council monitoring
   reports: we may well have reported the same conditions. Second, the argument fails to
   recognize the difference between monitoring and auditing. Even in the most intensive
   monitoring visit, some of the reportable conditions would likely go unnoticed. We monitor
   our programs, we do not audit thenl.

   We acknowledge that during part of the audit period our procedures for follow-up on
   monitoring issues was lacking. [n June, 2000, the Council instituted new practices to track
   non-compliance issues, including a defined timeline for correction. [See Attachment #4.]
9. Finding: The Council inadequately documented its approval and disapproval of grant
   funding for its subrecipients.

   The report asserts that reviewer rating sheets are not maintained by the Council. This is
   incorrect. Rating sheets of individual reviewers are maintained on file at the Council office.
   Council staff have no recollection of a request by Cotton & Company to review the rating
   sheets. During the audit process, Council staff maintained a centralized record of auditor
   requests and copies of the materials provided in response to the requests. Review of these
   records confirms that the rating sheets were not requested by Cotton & Company.

   The report further states that the Council has no documented policies and procedures for the
   selection of grant reviewers. The criteria utilized to select reviewers are contained in the
   Ohio Coinmu~zilyService Council Funding Review Process. [See Attachment #5.]




OCSC Resportse~to Audit Report No. 0.!-05
10. Finding: Certain subrecipients were granted partial Education Awards without
    adequate justification.

   The cases cited in the report are these in which members were released due to "compelling
   personal circumstances" and thus were entitled to a partial education award. The report
   states that certain cases in which members claimed compelling personal circumstances, the
   situation did not justify approval of the member claim. This may be true, based on the
   present definition. However, the grant provisions during the program years being audited
   cite the "discretion of the program director" as the standard for determining compelling
   personal circumstances; in the cases cited, the program director approved the member claim.

   Standards related to compelling personal circumstances have since been defined more strictly
   by the Corporation. Since that {time,our monitoring protocol has included a review of all
   exits involving compelling circumstances to ensure compliance to the new standards. The
   revised standards are included in grant provisions provided to subgrantees, and this topic is
   reviewed with program directors during the annual orientation meeting at the start of each
   grant year.




OC'SC Req~on.wto Audit Report No. 03-05                                              August 20, 2003
                                               APPENDIX B




CORPORATION'S RESPONSE TO DRAFT AUDIT REPORT
                                   covfio*AL &
                                   COMMUNITY
                                   SERVICE-




To:

From:

Date:         ktgdst 21,2003      '\3
Subj:         Response to OIG Draft Audit Report 03-05: Incurred Cost Audit of Grants
              Awarded to the Ohio Community Service Council


We have conducted a preliminary review of the draft audit report of the grants to the Ohio
Commission. Due to the limited timeframe for response and the disclaimer of opinion from the
auditors, we are not commenting at this time. We will respond to all findings and
recommendations when the audit is issued and we have reviewed the findings in detail. We will
work with and provide assistance to the Ohio Commission as needed to ensure corrective action
is completed.




                                                                                    OFFICE OF THE
                                                                                  INSPFCTflR GFNFRAL




                           1201 New York Avenue, NW * Washington, DC 20525
                                 202-606-5000 * www.nationalservice.org
                          Senior Corps * AmeriCorps   * Learn and Serve America                  The Pres~dcnt'sCall to ~ c R i c c
                                                   APPENDIX C




COTTON & COMPANY LLP's COMMENTS ON THE COUNCIL'S
         RESPONSE TO DRAFT AUDIT REPORT
                                                                                             APPENDIX C

         COTTON & COMPANY LLP'S COMMENTS ON THE COUNCIL'S RESPONSE
                          TO DRAFT AUDIT REPORT



The following paragraphs present Cotton & Company LLP's comments on the Council's responses to the
findings and recommendations included in this report.

1.      The Council's financial management system is inadequate.

         The Council stated that our decision to decline an opinion based on the issues with the financial
records was incorrect and that we should have relied on the records as they existed at the time the records
were prepared. The object of the audit was to provide an opinion on whether the expenditures reported to
the Corporation were supported by financial records at the time of the audit. We were not provided
financial records that supported expenditures at the time of our audit and therefore had no alternative but
to issue a disclaimer of opinion.

2.      The Council has inadequate segregation of financial management duties.

        The Council concurred with this finding but, because of other controls that exist within the State
government structure, disagreed with our assessment of its materiality. Our assessment of the weakness as
material is based on our observations during fieldwork.

3.      The Council's procedures for distributing salaries and wages are inadequate.

         The Council stated in its response that OMB Circular A-87 requires time and effort
documentation only in cases where time is distributed to multiple grants. That statement is incorrect;
certifications are required for employees that work solely on a single Federal award.

4.      The Council and certain subrecipients claimed unallowable costs and costs for which no
        documentation was provided to support allowability.

         The Council stated that questioned costs from its administrative operations will be resolved
directly with the Corporation. The report did not question any of the Council's costs; it simply identified
exceptions noted in our testing that will be reviewed in the Corporation's subsequent audit.

5.      The Council and certain subrecipients submitted untimely financial reports.

        We have no comment on the Council's response.

6.      Certain subrecipients did not comply with program requirements.

        The Council stated that we used current program requirements instead of program requirements
as they existed for the period under scrutiny. We disagree, and in all cases used the program requirements
that were in effect at the time of the expenditure or event.

7.      Certain subrecipients did not comply with record-retention policies.

        We have no comment on the Council's response.
8.      The Council did not adequately perform monitoring of subrecipients.

        The Council stated that its staff did perform monitoring tests of labor-related costs, but copies
documenting these tests were not retained. We do not understand why documentation supporting these
tests was not retained or, if these tests were performed, so many subgrantees were not in compliance with
OMB Circular A-87 labor distribution requirements.

9.      The Council inadequately documented its approval and disapproval of grant funding for its
        subrecipients.

        The Council stated that rating sheets of individual reviewers are maintained on file at the
Council's office and that Cotton & Company LLP did not request to review the rating sheets. During
fieldwork we met with the Council's Director of Programs, Mr. William Hall, who stated that the sheets
were destroyed. We recommend that th.e Council provide copies of the sheets to the Corporation during
the audit resolution process or in the subsequent audit.

10.     Certain subrecipients were granted partial education awards without adequate
        justification.

         The Council stated that during the program years audited, the determination of adequate
justification was completely at the discretion of the program director. We recommend that the
determination of the reasons the members were released be resolved with the Corporation during the audit
resolution process.
